<html>
<title> - UPDATE ON FEDERAL RAIL AND PUBLIC TRANSPORTATION SECURITY EFFORTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   UPDATE ON FEDERAL RAIL AND PUBLIC TRANSPORTATION SECURITY EFFORTS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                 SECURITY AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2007

                               __________

                            Serial No. 110-1

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                   U.S. GOVERNMENT PRINTING OFFICE
35-280 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009




                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON-LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                 D. Michael Stroud, Director & Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Transportation Security and Infrastructure Protection.......     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     9
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................    10
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    40
The Honorable Marsha Blackburn, a Representative in Congress From 
  the State of Tennessee.........................................    43
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    42
The Honorable Peter A. DeFazio a Representative in Congress From 
  the State of Oregon............................................    38
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    52
The Honorable Genny Brown-Waite, a Representative in Congress 
  From the State of Florida......................................    45

                               Witnesses
                                Panel I

Mr. Michael Haley, Depty Chief Counsel, Federal Railroad 
  Administration (FRA), U.S. Department of Transportation:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
The Honorable Kip Hawley, Assistant Secretary, Transportation 
  Security Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Terry Rosapep, Deputy Associate Administrator, Program 
  Management, Federal Transit Administration, U.S. Department of 
  Transportation:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                                Panel II

Ms. Cathleen A. Berrick, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    48

                               Appendixes

Appendix A:  The Railroad Industry's Safety Record...............    61
Appendix B:  Summary of the Steps FRA has Taken to Implement its 
  National Rail Safety Action Plan...............................    63


   UPDATE ON FEDERAL RAIL AND PUBLIC TRANSPORTATION SECURITY EFFORTS

                              ----------                              


                       Tuesday, February 6, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Transportation Security
                             and Infrastructure Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Thompson, DeFazio, 
Norton, Clarke, Perlmutter, Lungren, King, Brown-Waite, 
Blackburn, and Bilirakis.
    Ms. Jackson Lee. [Presiding.] Good morning. The 
subcommittee will come to order.
    The subcommittee is meeting today to receive testimony as 
an update on federal rail and public transportation security 
efforts.
    Might I take a moment of personal privilege to welcome all 
of the participating members of this subcommittee as they come 
into the hearing room. I look forward to both an expansive and 
extensive opportunity to secure the nation's transportation 
modes, as well as its critical infrastructure.
    I think I will path is daunting, but I believe that we have 
a great opportunity to do so, and we do so in the name of the 
security and safety of the American people.
    I would like to first of all welcome the ranking member, 
Ranking Member Lungren, and all of my Transportation Security 
and Infrastructure Protection Subcommittee colleagues again, 
and to indicate that I am optimistic that this subcommittee 
will be active, effective and bipartisan in its approach to 
securing our nation's transportation system and critical 
infrastructures.
    I also welcome all of the witnesses and thank them for 
testifying today.
    If one would reflect upon where we are after 9/11, 
certainly what would come to mind is the vastness of the 
nation's transportation system, and the overwhelming need, 
particularly in rail and public transportation, for us to 
assess it and to, of course, make it safe.
    The purpose of this hearing is to receive an update on 
federal government initiatives and improvements in rail and 
mass transit security in order to assess our nation's 
preparedness as it relates to future terrorist threats and 
attacks to our rail and mass transit infrastructure. Each 
weekday, 11.3 million passengers in 35 metropolitan areas and 
22 states use some form of rail transit. In addition to the 
commuter rail systems which provide regional service to 
America's largest cities, Amtrak operates the nation's primary 
intercity passenger rail service over a 22,000-mile network and 
500 stations in 46 states. In 2005, Amtrak served more than 25 
million passengers.
    As important as these commuter modes are to delivering 
Americans to their jobs, similarly, freight rail is vitally 
important to our nation's economy. Rail moves 40 percent of the 
nation's freight and contributes billions of dollars each year 
to the economy. While there are 562 common carrier freight 
railroads operating in the U.S., there are seven class I 
railroads, which account for 68 percent of the freight, 89 
percent of the employees, and 93 percent of the revenue.
    Throughout the world, mass transit systems have long been 
targets of terrorist attacks. Algerian extremists set off bombs 
on the subways of Paris in 1995 and 1996. The Irish Republican 
Army waged a long-running terrorist campaign against the London 
Underground. Palestinian terrorists have carried out suicide 
bombings on Israel's buses. Chechen terrorists killed 40 people 
by bombing the Moscow subway in 2004. And in the first 
terrorist use of a chemical weapon, a Japanese cult, Aum 
Shinrikyo, released sarin gas on a Tokyo subway in 1995.
    Recent events make it clear that the threat continues. On 
the morning of March 11, 2004, 10 explosions occurred at the 
height of the Madrid rush hour aboard four commuter trains. On 
July 7, 2005, during the morning peak travel hours, three 
separate explosions ripped through the London Underground, and 
a fourth explosion occurred on a double-decker bus. These four 
explosions, the result of coordinated suicide bombings by 
British-born Islamic extremists, claimed the lives of 56 people 
and seriously injured 100 more.
    Two weeks later, on July 21, 2005, another group of 
terrorists unsuccessfully attempted to attack London's mass 
transit system again. On July 11, 2006, a series of seven bomb 
blasts against a suburban railway in Mumbai, formerly known as 
Bombay, capital city of the Indian state of Ashara, and India's 
financial capital, resulted in 207 lost lives and over 700 
injured.
    The recent attacks serve as a harsh reminder of mass 
transit and rail security vulnerabilities. Both mass transit 
and rail systems are public and used by millions of people 
daily. Because of their size, openness and highly networked 
character, there are no obvious checkpoints like those at 
airports to inspect passengers and parcels. Passengers are 
strangers, promising attackers anonymity and easy escape.
    If any of us have engaged in travel on rail recently, we 
are well aware of the fluidness of rail transit opportunities. 
Attacks on mass transit, the circulatory system of urban areas, 
can cause widespread fear, severely disrupting economic 
activity, killing or injuring large numbers of people, and 
altering our way of life.
    An attack on our freight rail, either the material being 
transported, such as hazardous materials or vital commodities, 
or merely the system itself, could severely impact our national 
economy.
    As a result, both mass transit and rail systems are 
attractive targets. Since September 11, 2001, according to the 
Memorial Institute for the Prevention of Terrorism, mass 
transit systems have been the subject of more than 145 
terrorist attacks. Due to their existence in high-population, 
high-risk urban areas, mass transit systems are also inevitably 
affected by any terrorist attack that may occur within that 
jurisdiction, regardless of whether the transit system was the 
target of the attack.
    For example, during September 11, 2001, two of New York 
City's busiest transit stations were lost, and considerable 
damage occurred to the tunnel structures, endangering hundreds 
of lives underground. Certainly, collateral impact is one of 
the tragedies and the devastating impact of not securing the 
nation's rail system. Approximately $1.8 billion was needed to 
rebuild the subway infrastructure that was damaged in the 
attacks.
    I am hopeful that these hearings that we are having today 
will help us prevent such attacks, or really will wake up 
America. Pursuant to the Aviation and Transportation and 
Security Act of 2001, the TSA is responsible for the security 
of all modes of transportation, including rail and mass 
transit. TSA, however, has focused the majority of its 
resources and assets on aviation security for the past 5 years. 
It is now time to wake up and to recognize that TSA's lack of 
progress in developing a security strategy for all modes of 
transportation, mandated by the development of a national 
strategy for transportation security in the Intelligence Reform 
and Terrorism Prevention Act of 2004.
    Congress needs to recognize that. And this strategy, 
although due April 1, 2005, was not finalized by TSA until 
September, 2005. Moreover, the document provided by TSA did not 
meet the requirements set out by Congress, especially with 
regards to rail and mass transit security. Furthermore, 
subsequent congressionally mandated updates were also not met 
by TSA, resulting in the 9/11 Disclosure Project giving TSA a 
``C'' for its efforts.
    I find it completely appalling that this administration 
seems to be unwilling to act on rail and mass transit security 
until we are faced with another disaster. I shudder to think 
that if the Washington, D.C. or New York subway systems were 
attacked and mass casualties resulted, that we would be 
thinking that more could have been done to prevent such a 
tragedy.
    It is time now to answer that question: What should we be 
doing? And we will be desperately trying to figure out how to 
prepare for a disaster that has already happened if such an 
incident occurs, and holding hearings after the incident to 
find out who dropped the ball. I think we need to prepare and 
prepare now.
    We have been blessed thus far that our rail and public 
transportation have not been attacked. We should make our best 
efforts to ensure that we do not overlook this blessing. From 
the terrorist attacks that have occurred around the world, we 
know that terrorists will target our rail and public 
transportation system. They will go to all lengths. Despite 
this admonition, the agency created and funded by Congress to 
address the issue of transportation security has consistently 
dropped the ball when it comes to rail and public 
transportation.
    We cannot let the lessons of Madrid, London, and Mumbai go 
unheeded for the sake of millions of Americans. What we are 
witnessing with the Transportation Security Administration is a 
lack of complete accountability. The TSA is not being held 
fully accountable for protecting our transportation systems, 
and this must change.
    I acknowledge and appreciate the time that TSA 
Administrator Kip Hawley has taken to participate in this 
important hearing. I thank him for his presence. However, we 
cannot tolerate the TSA's past inaction on this issue to 
continue for a moment longer, and I look forward to working 
with the administrator, and I appreciate the openness in which 
he has expressed his willingness to work with us.
    While it is understandable that we have put focus on the 
safety of air travel, given the events of 9/11, we need to get 
going on the issues dealing with rail and mass transit. We 
can't be lopsided. I am pleased that this Congress and Chairman 
Thompson has decided to do what this administration has thus 
far proved unwilling to do, and that is to provide a 
comprehensive framework to secure this nation's rail and public 
transportation systems and to highlight it, the way it has 
never been highlighted before.
    We thank you, Chairman Thompson.
    We owe it to the public to safeguard the modes of 
transportation and the millions of persons who use this every 
day. We owe it to our children. I eagerly look forward to the 
testimony so that our children, who look to us for their safety 
and security, can be safe and secure as our grandchildren will 
be as well.

           Prpeared Statement of the Hon. Sheila Jackson Lee

    First and foremost, I welcome Ranking Member Lungren and all of my 
Transportation Security and Infrastructure Protection Subcommittee 
colleagues. I am optimistic that this Subcommittee will be active , 
effective, and bipartisan in its approach to securing our nation's 
transportation system and critical infrastructure. I also welcome all 
the witnesses, and thank them for testifying today.
    The purpose of this hearing is to receive an update on federal 
government initiatives and improvements in rail and mass transit 
security in order to assess our nation's preparedness as it relates to 
future terrorist threats and attacks to our rail and mass transit 
infrastructure.
    Each weekday, 11.3 million passengers in 35 metropolitan areas and 
22 states use some form of rail transit. In addition to the commuter 
rail systems which provide regional service to America's largest 
cities, Amtrak operates the nation's primary intercity passenger rail 
service over a 22,000-mile network and 500 stations in 46 states. In 
2005, Amtrak served more than 25 million passengers.
    As important as these commuter modes are to delivering Americans to 
their jobs, similarly, freight rail is vitally important to our 
nation's economy. Rail moves 40 percent of the nation's freight and 
contribute billions of dollars each year to the economy. While there 
are 562 common carrier freight railroads operating in the U.S., there 
are seven Class I railroads, which account for 68 percent of the 
freight, 89 percent of the employees and 93 percent of the revenue.
    Throughout the world, mass transit systems have long been targets 
of terrorist attacks. Algerian extremists set off bombs on the subways 
of Paris in 1995 and 1996; the Irish Republican Army waged a long-
running terrorist campaign against the London Underground; Palestinian 
terrorists have carried out suicide bombings on Israel's buses; 
Chechnyan terrorists killed 40 people by bombing the Moscow subway in 
2004; and, in the first terrorist use of a chemical weapon, a Japanese 
cult--Aum Shinrykyo--released sarin gas on a Tokyo subway in 1995.
    Recent events make it clear that the threat continues. On the 
morning of March 11th, 2004, ten explosions occurred at the height of 
the Madrid rush hour aboard four commuter trains. On July 7, 2005, 
during the morning peak travel hours, three separate explosions ripped 
through the London Underground and a fourth explosion occurred on a 
double-decker bus. These four explosions, the result of coordinated 
suicide-bombings by British-born Islamic extremists, claimed the lives 
of 56 people and seriously injured hundreds more. Two weeks later, on 
July 21, 2005, another group of terrorists unsuccessfully attempted to 
attack London's mass transit system again. On July 11th, 2006 a series 
of seven bomb blasts against the Suburban Railway in Mumbai (formerly 
known as Bombay), capital city of the Indian state of Maharashtra and 
India's financial capital resulted in 207 lost lives and over 700 
injured.
    The recent attacks serve as a harsh reminder of mass transit and 
rail security vulnerabilities. Both mass transit and rail systems are 
public and used by millions of people daily. Because of their size, 
openness, and highly-networked character, there are no obvious 
checkpoints, like those at airports, to inspect passengers and parcels. 
Passengers are strangers, promising attackers anonymity and easy 
escape.
    And attacks on mass transit--the circulatory systems of urban 
areas--can cause widespread fear, severely disrupt economic activity, 
kill or injure large numbers of people, and alter our way of life. An 
attack on our freight rail, either the material being transported (such 
as hazardous materials, or vital commodities), or merely the system 
itself, could severely impact our national economy.
    As a result, both mass transit and rail systems are attractive 
targets. Since September 11, 2001, according to the Memorial Institute 
for the Prevention of Terrorism, mass transit systems have been the 
target of more than 145 terrorist attacks.
    Due to their existence in high-population, high-risk urban areas, 
mass transit systems are also inevitably affected by any terrorist 
attack that may occur within that jurisdiction--regardless of whether 
the transit system was the target of the attack. For example, during 
September 11, 2001, two of New York City's busiest transit stations 
were lost and considerable damage occurred to the tunnel structures, 
endangering hundreds of lives underground. Great care was required to 
evacuate passengers, locate and rescue trapped transit cars, and 
communicate instructions. The damage in New York City was so great that 
in the immediate aftermath of 9/11, Congress appropriated $1.8 billion 
to rebuild the subway infrastructure that was damaged in the attacks. I 
am hopeful that through hearings such as the one we are having today, 
we can prevent such attacks rather than face the tragic consequences of 
9/11 again.
    Pursuant to the Aviation and Transportation Security Act of 2001 
(ATSA), the Transportation Security Administration (TSA) is responsible 
for the security of all modes of transportation including rail and mass 
transit. TSA, however, has focused the majority of its resources and 
assets on aviation security in the past five years.
    Congress, recognizing TSA's lack of progress in developing a 
security strategy for all modes of transportation, mandated the 
development of a National Strategy for Transportation Security in the 
Intelligence Reform and Terrorism Prevention Act of 2004 (``9/11 
Act''). This strategy, although due April 1, 2005, was not finalized by 
TSA until September 2005. Moreover, the document provided by the 
Department of Homeland Security (DHS) did not meet the requirements set 
out by Congress, especially with regards to rail and mass transit 
security. Furthermore, subsequent congressionally mandated updates were 
also not met by TSA, resulting in the 9/11 Discourse Project giving the 
TSA a C--for its efforts.
    On December 17, 2003, the President issued Homeland Security 
Presidential Directive (HSPD)--7 on critical infrastructure protection, 
prioritization, and protection. The Directive required the Department 
of Homeland Security to develop a National Infrastructure Protection 
Plan (NIPP) covering 17 critical infrastructures and key resources. 
This plan was supposed to be completed by December 2004. It was not 
completed until Summer 2006. Similarly, the Department was supposed to 
complete a Transportation Sector Specific Plan as part of the NIPP. 
This plan was also due in December 2004. It has not yet been completed.
    On December 5, 2006, the President issued Executive Order (EO) 
13416 on strengthening surface transportation security, recognizing the 
security of the nation's surface transportation systems is vital to 
economy and security of the nation. In the EO, the President stated 
that federal state and local and the private sector share 
responsibility for surface transportation security. The EO calls for 
implementation of a comprehensive, coordinated and efficient security 
program. It also states that the Secretary of Homeland Security is the 
principal federal official responsible for infrastructure protection 
for surface transportation.
    The 9/11 Act, the HSPD-7, and the Executive Order all request that 
DHS come up with a comprehensive plan for surface security. Those 
requests still have not been answered--and it suggests strongly that 
TSA still does not recognize the importance of protecting the nation's 
rail and mass transit systems.
    TSA's failure to assume a leadership position on surface 
transportation security was recently highlighted in a Senate hearing on 
rail security. Ms. Cathleen Berrick, of the Government Accountability 
Office (GAO), testified on the subject before the Senate Committee on 
Science, Commerce, and Transportation on January 18, 2007. In her 
testimony, she found that TSA still has not completed a comprehensive 
risk assessment of the U.S. passenger rail system. According to Ms. 
Berrick, this is the key component to prioritizing security 
investments. In addition, she indicated that there has been turmoil 
among those in the industry as to whether TSA's actions to this point, 
namely issuing directives, security technology, training for rail 
workers, and new proposed rules regarding passenger and freight rail 
security, are based on industry best practices and to what extent TSA 
can monitor compliance. The GAO also found that the U.S. is not 
implementing many of the security options in use overseas, such as 
covert testing, random screening of passengers and their packages, and 
centralized research and testing. According to GAO, these methods have 
not been properly vetted by TSA and should be considered. The general 
conclusion of the report is that much more leadership and guidance 
needs to be provided by the federal government to construct a 
comprehensive rail and transit security plan.
    I find it completely appalling that this Administration seems to be 
unwilling to act on rail and mass transit security until we are faced 
with another disaster. I shudder to think that if the Washington, D.C. 
or New York subway systems were attacked, and mass casualties resulted, 
that we would be thinking that more could have been done to prevent 
such a tragedy. We will be desperately trying to figure out how to 
prepare for a disaster that has already happened and holding hearing 
after hearing to find out where we dropped the ball. The time to 
prepare is now, and I am committed to securing our nation's rail and 
mass transit system expeditiously. We have been blessed thus far that 
our rail and public transportation systems have not been attacked. We 
should make our best efforts to ensure that we do not overlook this 
blessing.
    From the terrorist attacks that have occurred around the world, we 
know that terrorists will target our rail and public transportation 
systems. Despite this admonition, the agency created and funded by 
Congress to address the issue of transportation security has 
consistently dropped the ball when it comes to rail and public 
transportation. We cannot let the lessons of Madrid, London, and Mumbai 
go unheeded. For the sake of the millions of Americans who use our rail 
and mass transit systems everyday to go to work, school, and visit 
friends and family, we have to take charge on this security risk.
    What we are witnessing with the Transportation Security 
Administration is a lack of complete accountability. The Transportation 
Security Administration is not being held fully accountable for 
protecting our transportation systems and this must change. I 
acknowledge and appreciate the time that TSA Administrator Kip Hawley 
has taken to participate in this important hearing. However, we cannot 
tolerate the TSA's past inaction on this issue to continue for a moment 
longer.
    While it is understandable that we would put focus on the safety of 
air travel, given the events of 9/11, what cannot be justified is the 
completely lopsided attention by the Department to aviation security at 
the expense of rail and mass transit security. I am pleased that this 
Congress and Chairman Thompson have decided to do what this 
Administration has thus far proved unwilling to do. That is, to provide 
a comprehensive framework to secure this nation's rail and public 
transportation systems.
    We owe it to the public to safeguard the modes of transportation 
that allow them to carry on with their lives and drive this economy. 
Millions of men and women ride our nation's rail and public 
transportation systems everyday; we owe it to them to ensure that they 
can do so safely and securely. I hope that through today's hearing and 
our continued efforts on the issue of rail and mass transit security, 
we can resolve the asymmetric way in which we treat aviation versus 
rail security and resolve the substantial threat posed by inadequately 
security on our rail and mass transit system.
    I eagerly look forward to all of your testimonies and discussion of 
these critical issues today. I yield back the remainder of my time.

    Ms. Jackson Lee. I would be happy now to recognize the 
ranking member of the subcommittee, the gentleman from 
California, for his opening statement.
    Mr. Lungren. I thank the gentlelady. I would like to 
congratulate her in her position as the new chairwoman of our 
subcommittee. Thank you for moving so quickly on this important 
issue.
    I would also like to thank our government witnesses for 
their testimony today, and for the initiatives they have 
already taken to secure our passenger rail and mass transit 
systems. This is an issue which we visited over the last 2 
years. The challenges you face are obviously enormous. They are 
unique, as opposed to other modes of transportation and other 
modes of carrying cargo.
    Every day, our nation's commuter, heavy and light rail 
transit systems carry over 11 million passengers. Amtrak, which 
has been one of the topics of conversation in Congress going 
back 25 years, now operates the nation's primary intercity 
passenger rail service over this 22,000-mile network, carrying 
another 25 million passengers annually.
    It is these millions of passengers traveling over extensive 
and open rail network, and I underscore that, an extensive and 
open rail network, which creates such a daunting security task 
and requires this update of federal rail and public 
transportation security efforts.
    The federal government has divided authority for rail and 
mass transit safety and security between the Departments of 
Homeland Security and Transportation. Our witnesses today from 
the Transportation Security Administration, the Federal Transit 
Administration, and the Federal Rail Administration are the 
departmental organizations responsible for identifying and 
mitigating the safety and security risks to our rail and 
transit systems.
    This division of federal authority creates a corresponding 
responsibility on Congress to encourage, coordinate and oversee 
that these agencies continue to secure our rail and mass 
transit systems. Since 9/11, the Department of Homeland 
Security has taken many actions to manage risk and improve the 
security of our nation's rail and transit systems. Along with 
TSA, it has provided over $18 billion in funding to state and 
local governments for programs and equipment to help manage 
their security risks.
    For transit security specifically, TSA has already 
distributed over $585 million in grants, with an additional 
$175 million announced this year. I think we can applaud that, 
but we also know that more needs to be done.
    Our question is: When you don't have an unlimited budget, 
how do you make sure that you prioritize and you organize 
yourself in such a way to be most effective? How do we follow 
through on the risk-based assessment analysis that this 
Congress has approved and that the secretary of DHS has spoken 
of so often? That is an analysis that we have constantly 
reminded ourselves of, and that needs to be followed in all 
that we do.
    Utilizing our intelligence resources, DHS, TSA has trained 
and deployed manpower and assets to high-risk areas, developed 
and tested new security technologies, and performed risk 
assessments on systems across the country. But I would join the 
chairperson of this subcommittee in saying that we have not 
done enough. I don't merely say that about the administration. 
I say that about us in the Congress.
    It is natural, when you have been attacked in the most 
serious attack on American soil since Pearl Harbor, that you 
would look at the nature of that attack, and you would look at 
that environment, and that you would therefore spend a good 
amount of your time, perhaps an inordinate amount of your time, 
looking at securing the aviation system from a safety 
standpoint, from a security standpoint.
    Nonetheless, we know that the foe looks for 
vulnerabilities. If we strengthen one place, they will look for 
another place that we haven't strengthened as much. As a 
result, we have to try and keep one step ahead of them. The 
public and private passenger rail operators also share 
responsibility for securing their own systems. Most operators 
have already implemented customer awareness programs 
encouraging passengers to remain vigilant and report suspicious 
activities. They have also increased the number and visibility 
of security personnel, upgraded security technology, tightened 
access controls, made rail system design improvements to 
enhance security, and increased the use of canine teams to 
detect explosives.
    But I think we all know more can be done. I have looked at 
some rail yards and found that they were easily accessible, 
without any gate or any fencing whatsoever. I know they have 
patrols. The question is: How often are those patrols there? 
How effective are those patrols?
    And frankly, in one community in which I once lived, 
Roseville, California, which has the largest rail yard once you 
are past the Sierras, just by the number of people--well, we 
used to call them hobos, we use other names now, but people who 
ride those rails, they get access to those places. I just 
wonder whether we have done enough, and that is one thing I 
think we have to look at. We have a more serious issue now than 
just people riding the rails for free. If some of those people 
are terrorists bent on doing destruction, that is a completely 
different problem that we now face.
    Because our rail and mass transit systems are open, are 
easily accessible, and handle millions of customers daily, they 
are vulnerable to terrorist attacks. Trained rail employees 
must be our first line of defense. Since 9/11, thousands of 
employees have undergone security training, including police 
officers, emergency responders, security personnel, management 
and frontline employees. This training is absolutely essential, 
since our rail transit employees will be the first people 
impacted by a terrorist event.
    They will play a key role in managing the terror aftermath, 
evacuating civilians, and providing first-aid relief. These 
frontline rail and transit employees also play an important 
role in preventing such attacks. They are familiar with their 
surroundings, their work environment, and can report suspicious 
activity and packages to security personnel.
    So as I say, while progress has been made addressing our 
rail and mass transit security challenges, much, much remains 
to be done. I look forward to the testimony of our witnesses 
this morning, and their suggestions for improving the security 
of these vital transportation systems.
    I thank the chairperson for her time.
    Ms. Jackson Lee. I thank the distinguished gentleman from 
California.
    I am delighted as I yield to the distinguished chairman of 
the full committee to accept your comment that Congress has not 
done enough, and because of the chairman of the full committee, 
we look forward to accepting that challenge and doing what is 
necessary to secure the nation's rails.
    With that, I yield to the gentleman from Mississippi, Mr. 
Thompson, for his opening statement, the chairman of the full 
committee, 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chairman. I look 
forward to working with you on this subcommittee as we work to 
improve a number of transportation security issues here in 
America.
    I welcome the witnesses today. You have an awesome 
responsibility heaped upon you, and we want to work as 
cooperatively with you as possible in this respect. It is 
absolutely important that we do more.
    Both speakers before me have talked from a historical 
perspective about our rail systems and how important they are. 
We also know how many people travel the rails every day. But 
some of us who have an opportunity to go personally on the 
systems see how different the security is for the rail system 
than it is for airline systems. Airlines are light-years ahead 
of rail.
    It could possibly be because we have not put enough money 
into ramping up rail security. I am told that we spend about $9 
per passenger in airline security, and about 2 cents per 
passenger in rail security. Well, at that rate, we will never 
catch up, the rail systems. But I am also told that some simple 
things like training the people who work for the rail industry 
on more security issues would be something better than just 
giving them a 30-or 45-minute video and telling them to go out 
and find bad things. We have to come up with a comprehensive 
training program for rail workers, who said to me that they 
want to be trained to help. They are there every day.
    So I look forward to the testimony, but I am also 
disappointed with the budget numbers I see for rail security. I 
want our witnesses to, either in their testimony or as we deal 
with the questions, see whether or not the money is adequate. 
Could you do more with more money? If you had more money, what 
could you do with it to secure our rail systems? It is 
absolutely important.
    Bad people look for vulnerabilities. If we know the 
vulnerability is around, we need to look at it. We will be 
marking up, as you know, later this month and into next month a 
rail security bill. Our ranking member of the full committee 
has talked about some vulnerabilities in his area. I look 
forward to working with him on those 10 stations, and some of 
the others. We have some other tunnels along the way that we 
have to fortify. We are not going to try to recommend how to do 
it. We are going to provide resources to come with the best 
possible technology.
    So, Madam Chairman, I look forward to the testimony of the 
witnesses, and I look forward to moving the ultimate 
legislation forward so that we can assure those individuals who 
ride the trains of this country, the subways of this country, 
that they are safe. But likewise, we want to talk a little bit 
about individuals who have hazardous cargo moving through their 
communities, how we can secure those items to make sure that 
they are also protected.
    I yield back the balance of my time.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    It is my pleasure now to recognize the ranking member of 
the full committee, the distinguished gentleman from New York, 
Mr. King, for an opening statement.
    Mr. King. Thank you, Ms. Jackson Lee.
    Let me join with Mr. Lungren and Mr. Thompson in commending 
you on your session as chairwoman. I know you will do an 
outstanding job. I have had the privilege of working with you 
on a number of committees over the years, and I know the energy 
and drive you bring to these issues. I certainly look forward 
to it.
    I also want to thank Congressman Lungren for the job that 
he did during the 2 years that he was chairman of this 
subcommittee, especially on this issue of rail security. I want 
to thank Chairman Thompson for the effort that he is going to 
put into this issue, and also for reaching out to me and 
agreeing to work on areas of, actually, parochial interest to 
me, but also I think which have a national impact. I am sure I 
can count on Ms. Clarke's assistance on those issues.
    We come from an area where we have literally hundreds of 
subway stations, thousands of entranceways and exits, and also 
millions of passengers. That does not include the hundreds and 
hundreds of thousands of passengers coming from the suburbs 
every day. As Chairman Thompson said, there is Penn Station. 
But again, this is a national issue. There is the issue of 
train yards. There is the issue of hazardous cargo.
    I want to thank the witnesses for being here today. I look 
forward to their testimony. I want to acknowledge Mr. Hawley 
for work that he has done, because I think a significant amount 
has been done as far as rail transit is concerned. I think as a 
practical matter, if we are talking about risk-based funding 
and risk-based initiatives, I don't know if we will ever reach 
the stage where you could have the same level of security on 
rail as we have on airports, just by their nature. In many 
ways, it is like comparing apples and oranges.
    Having said that, we have to do more to increase the 
security, but I think we have to realize they are different 
categories. There are things that can be protected, and others 
where we can minimize the level of danger, and have layers of 
protection.
    So I look forward to the testimony today. I look forward 
especially to working with Chairman Thompson as he goes forward 
with his legislation. I think we can find many areas of common 
ground. If there are going to be differences, they will be 
honest differences. Certainly, I will try to find a way to 
mitigate those differences. But I think on balance, we are 
definitely going in the right direction. It is a continuation 
of what Congressman Lungren had done last year. Chairman 
Thompson and Chairwoman Jackson Lee are bringing extra effort 
and incentive to it this year, and certainly Mr. Lungren and I 
look forward to working with you as we go forward.
    With that, I yield back the balance of my time.
    Ms. Jackson Lee. Mr. King, we welcome your collaborative 
effort. We thank you for your service as well. I think the 
ultimate, if you will, mission is to get something done.
    Let me make mention of the fact that other members of the 
subcommittee are reminded that under the rules, opening 
statements may be submitted for the record. I do want to 
acknowledge the presence of Mr. DeFazio of Oregon and Ms. 
Clarke of New York, Mr. Bilirakis of Florida, and I know that 
Ms. Blackburn of Tennessee has joined us for this hearing. We 
thank them so very much for their presence.
    I would like to welcome, again, the first panel of 
witnesses. As indicated, our interest in this hearing is to 
secure facts, and as we do that, to explore and develop the 
right kind of legislation to solve some of the crises we face 
in rail security.
    Our first witness, the Honorable Kip Hawley, is the 
assistant secretary of the Transportation Security 
Administration. Mr. Hawley has testified before Congress on 
numerous occasions regarding matters of transportation 
security, and brings more than 20 years of transportation and 
technology experience to TSA.
    Welcome, Administrator Hawley.
    Second is Mr. Terry J. Rosapep. Mr. Rosapep is a deputy 
associate administrator at the Federal Transit Administration 
for the Office of Program Management. He has been with FTA for 
5 years and has over 25 years of transportation experience at 
the municipal and regional levels.
    Welcome, too, Deputy Associate Administrator Rosapep.
    Third is Michael Haley, the deputy chief counsel in the 
Office of Chief Counsel of the Federal Railroad Administration. 
Mr. Haley has been in the chief counsel's office since 1971 and 
manages a staff of 38 attorneys and support staff, providing 
legal counsel and support to all FRA officials and programs.
    We welcome you as well, Mr. Haley.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Mr. Hawley, the 
administrator of TSA.
    Mr. Hawley, welcome again.

      STATEMENT OF HON. KIP HAWLEY, ASSISTANT SECRETARY, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Hawley. Thank you very much. And good morning, 
Chairwoman Jackson Lee, Ranking Member Lungren and full 
committee Chairman Mr. Thompson and full committee Ranking 
Member Mr. King and members of the committee.
    I am pleased to appear before you today to talk about TSA's 
efforts in reducing terrorist risks to surface transportation. 
It is also a pleasure to join my colleagues and partners from 
the FTA and Federal Rail Administration here, as well as my 
colleague, Deputy Administrator Robert Jamison, who was 
formerly deputy administrator at FTA and acting federal rail 
administrator.
    We look forward to working with this committee on these 
important issues. I appreciate the thoughtful statements made 
this morning.
    We look at terrorist risk to surface transportation in the 
same way we do for aviation. Both are highly visible target 
areas that have previously been attacked and they remain a 
great concern. At the top level of our security measures, we do 
not attempt to segregate our efforts by target type, like rail 
or air. But rather, we engage with our partners in intelligence 
and law enforcement to disrupt plots at the earliest possible 
point.
    We know that attack planning can start out directed one way 
and then change as it moves along. The most effective way to 
stop attacks is at the front end, to find the people at the 
planning stage and stop them there.
    I appreciate the committee addressing these issues so we 
can get them out on the table and assure the traveling public 
that, indeed, security for our surface modes of transportation 
is a very high priority of the government and effective 
measures are in fact in place.
    We are constantly striving to raise the baseline for 
security. Members of this committee have expressed to me their 
desire to do more and do it faster. I look forward to working 
with the committee and our other partners to take up that 
challenge and achieve more effective security, while preserving 
the free mobility of the public.
    Very quickly, I would like to summarize our security 
strategy for surface transportation. I mentioned the most 
important layer is to connect with our network partners and 
stop plots at the beginning. We work daily with our colleagues 
in the intelligence community and throughout law enforcement on 
this, and then connect with transit and rail operating systems 
with information and suggested actions.
    TSA has the general manager for rail, Gil Kovar, who has 30 
years of senior-level operating experience and can convert 
threat information into usable, effective actions at the ground 
level. TSA has the general manager for transit, Paul Lennon, 
who also has 30 years in the business, starting as a bus driver 
with the MBTA in Boston, and most recently as head of security 
at L.A. Transit.
    The second layer is to look at the surface transportation 
system to see if there are any risks of national significance. 
Secretary Chertoff has a risk-based strategy for DHS and we 
follow that at TSA and here in surface transportation. We have 
completed risk assessments of service transportation and 
identified our top priorities based on threat vulnerability and 
consequence. They are, A, high-density passenger transit 
systems in urban areas with underwater or underground tunnels; 
and B, highly toxic chemicals in rail cars that are standing 
unattended in high-risk urban areas.
    Our mitigation measures include federal grant priority for 
the passenger transit systems and an innovative and immediate 
risk reduction approach to freight rail. Working with state and 
local authorities, we look at individual transit systems. One 
of our fundamental principles is to take advantage of all the 
work that was done before 9/11, even if it wasn't originally 
done for security. This panel represents the point.
    TSA is not reinventing the wheel. DOT has been working 
transportation safety issues for a long time. Many of those 
measures form a very solid security foundation. Our job is to 
link with the safety activities and add value on top of that 
where there are particular security-specific needs. We do that 
with intelligence sharing, vulnerability analysis, technology 
sharing, and our VIPR teams where TSA brings together federal 
air marshals, canine teams, and TSOs at the invitation of local 
law enforcement to provide a visible and unpredictable security 
presence to a variety of surface transportation environments.
    Then the federal government makes funds available to state 
and local authorities for their use in providing what works 
best for them locally in the security arena. Unlike aviation, 
where the federal government pays for all the TSA people and 
federal air marshals at airports around the country, most of 
the people in the rail and transit environment are paid for 
locally. The federal support comes in the form of information 
sharing, surge capacity, technical assistance, and does include 
direct and flexible financial support.
    Since 2003, and including the president's budget for fiscal 
year 2008, DHS will make available almost $20 billion in funds 
that can be used to meet priority local security needs. At the 
same time, DHS will make available nearly $750 million 
specifically targeted at mass transit security.
    That rounds out the basic elements of the transportation 
security strategy for surface. I would be happy to answer any 
questions when the time comes.
    [The statement of Mr. Hawley follows:]

             Prepared Statement of the Honorable Kip Hawley

    Good morning Chairwoman Jackson Lee, Ranking Member Lungren, and 
Members of the Subcommittee. I am pleased to appear before you today to 
talk about our efforts in the field of rail and surface transportation 
security at the Transportation Security Administration (TSA). I would 
like to highlight some of the important steps that TSA and the 
Department of Homeland Security (DHS) are taking in partnership with 
the Department of Transportation (DOT) and our transportation network 
partners. Many of these important security steps are built upon and 
fortified by a solid safety foundation that has been developed over the 
years by our transportation partners and DOT.

Raising the Security Baseline of an Interconnected Network
    As we continue to strive to improve the security of these vital 
transportation systems, we must not forget the principles that make 
them viable and efficient. Many of these systems were designed with 
mobility and ease of access as an enabling fundamental underlying their 
operational success. Our security efforts must work within the 
framework of these systems and not hamper them. That inherent openness 
and mobility also presents us with our greatest security challenge.

Intelligence
    Non-linear risk drives everything we do. Instead of focusing on 
predicting the next attack, TSA takes a flexible approach and uses a 
risk-based methodology to address risk.
    TSA pursues a layered approach to security in transportation, 
including passenger transit, highway, pipeline, and rail security. This 
approach starts by leveraging the work of other United States 
Government entities that takes place way beyond the doors of TSA and 
even beyond the soil of the United States through effective gathering, 
analysis, and dissemination of intelligence. As detailed below, we do 
this by working collaboratively with the transportation and shipper 
industries, as well as with State and local officials.
    The recent disruption of the terror plot in the United Kingdom and 
of the developing plot targeting underwater tunnels connecting New York 
and New Jersey illustrate the necessity of this approach. The best 
defense is one that prevents the terrorists from ever entering the 
United States. TSA complements other efforts by creating visible, 
unpredictable deterrence environments to disrupt terrorists' planning 
capabilities and operational launching of their missions. For example, 
our aviation system security measures provide a significant barrier to 
entry for potential terrorists coming to our country. Our government's 
investments and improvements in terrorism watch lists, border security 
and intelligence networks significantly enhance surface transportation 
security.

Network Approach and Strategy
    To effectively address transportation security, we employ a network 
approach. The overall transportation system is a network. It has 
intersections and junctions; and while each transportation mode has its 
own security challenges, there are common vulnerabilities and 
mitigation strategies. In an effort to use our security resources 
efficiently, we work closely with transportation networks to leverage 
our security impact and determine risk-based priorities.
    As we effectively leverage our resources and set security 
priorities, TSA implements a comprehensive strategy that applies a 
common methodology across all transportation networks, regardless of 
mode. That strategy is simple and straightforward. It consists of five 
elements:
        <bullet> Assess industry threat, vulnerability, and 
        consequence;
        <bullet> Develop baseline security standards;
        <bullet> Assess actual security status against baseline 
        security standards;
        <bullet> Develop plans to close gaps between actual status and 
        baseline security standards; and
        <bullet> Develop enhanced systems of security.
    Next, let me discuss how this strategy works in practice for the 
freight rail, passenger rail and rail transit, highway (trucking) and 
pipeline industries.

Industry Threat Vulnerability and Consequence Assessments (TVC)
    The purpose of threat, vulnerability and consequence assessments is 
to focus efforts on and highlight risk areas. Since September 2001, 
many Federal agencies and industry partners have been involved in 
significant efforts to identify the highest risk areas for our security 
focus. Those efforts have centered on analyzing threats, assessing 
vulnerabilities and calculating consequences of potential terrorist 
attacks. Based upon this large body of work and our ongoing analysis, 
TSA determines the areas of highest risk for each mode of 
transportation so that we can properly focus on risk mitigation 
efforts.

        Freight Rail-TVC. Over the past several years, TSA has 
        completed a number of freight rail corridor assessments in high 
        threat urban areas. The point of the corridor assessments is to 
        focus on high risk areas and determine the vulnerabilities. We 
        have completed regionally based assessments in New Orleans, LA; 
        Washington, DC; Houston, TX; Buffalo, NY; Cleveland, OH; and 
        several cities in New Jersey including Newark, Elizabeth and 
        Perth Amboy. We are currently assessing Los Angeles, CA and 
        plan to visit additional urban areas in 2007. The results of 
        the initial six assessments demonstrated recognizable trends 
        and risks. We identified railcars with toxic inhalation hazard 
        materials (TIH) sitting unattended to be a high risk potential 
        as a terrorist target. While these shipments represent less 
        than one percent of all rail shipments, if attacked they could 
        create an airborne hazard and potentially endanger the lives of 
        people living and working in those communities.

        Passenger Transit-TVC. (Amtrak falls within our passenger 
        transit division.) In assessing security in this area TSA is 
        building upon a base of knowledge derived from 37 assessments 
        of readiness to prevent, detect, deter, and respond to 
        terrorist incidents, conducted by the Federal Transit 
        Administration (FTA) and the Federal Railroad Administration 
        (FRA). TSA has a 100 person Surface Transportation Security 
        Inspection (STSI) force that is updating these earlier 
        assessments and conducting additional freight rail and 
        passenger transit readiness assessments. TSA has utilized its 
        inspection force to conduct assessments over the past year and 
        a half and will continue to conduct these assessments in 
        partnership with the rail industry and DOT.
            The extensive field work conducted by TSA and FTA/FRA in 
        conjunction with the industry has been utilized to set our 
        priorities and identify industry baseline standards. TSA and 
        FTA/FRA assessments, in addition to in-house risk analysis, 
        focus on passenger transit operating procedures and high risk/
        high consequence assets.

        Highway (Trucking)--TVC. TSA has been assessing the security 
        risks of motor carriers through the Corporate Security Review 
        (CSR) program, another form of assessment of industry readiness 
        and vulnerabilities. Based up on our analysis we are focused on 
        TIH and other hazardous chemicals of concern, which include 
        explosives, flammables and other poisonous materials.

        Pipeline-TVC. Through the CSR program for pipelines, TSA has 
        identified a number of pipeline systems that pose the highest 
        security risk. TSA will also conduct a pipeline infrastructure 
        study to identify the highest risk pipeline assets.

Baseline Standards
    The purpose of baseline standards is to create measurable risk 
reduction targets.

        Freight Rail Baseline Standards. Because the potential risk 
        posed by unattended TIH rail cars in high threat urban areas 
        was identified as the highest risk area in rail, TSA developed 
        a risk reduction goal of reducing the objectively-measured risk 
        of TIH cars in high threat urban areas by 25 percent per year, 
        starting in 2007. That risk factor takes into account car 
        hours, the population of urban areas and the proximity to 
        residential and commercial structures.
            TSA has also identified 27 other focus areas as security 
        action items for the rail industry to begin to address. The 
        actions items were released to the industry in June and 
        November 2006. The action items focus on security awareness 
        training, security focused inspections, suspicious activity 
        reporting, control of sensitive information and employee 
        identification. TSA is assessing conformity with the security 
        action items to evaluate how implementation of the action items 
        reduces objectively measured risk.

        Passenger Transit Baseline Standards. Based upon extensive 
        assessments, in-house risk analysis performed at TSA and 
        dialogue with the industry, TSA has developed baseline 
        standards for the industry derived from six fundamental 
        principles. Those principles are:
                <bullet> Protect high risk/high consequence 
                underground/underwater assets and systems;
                        <bullet> Protect other high risk/high 
                        consequence assets and systems identified in 
                        vulnerability assessments;
                        <bullet> Use visible, unpredictable deterrence;
                        <bullet> Plan and conduct awareness and 
                        response training for key personnel;
                        <bullet> Plan and conduct emergency drills and 
                        exercises; and
                        <bullet> Plan and conduct public awareness and 
                        preparedness campaigns.

        Highway (Trucking) Baseline Standards. TSA has been working 
        closely with a number of chemical shippers to develop a series 
        of baseline security standards for both TIH and other hazardous 
        chemicals of concern. Those standards will address specific 
        areas such as vehicle tracking, vehicle attendance, vehicle 
        alarm systems, truck cab access controls, locking fifth wheel 
        on tank trailers and security route and stop areas.

        Pipeline Baseline Standards. TSA has been conducting corporate 
        security reviews targeting the top 100 pipeline operators. From 
        the results of these reviews, TSA has developed a series of 
        security standards based upon the best operating practices of 
        those companies. The pipeline standards address areas including 
        security plans, employee security training, access controls and 
        physical access security, and employee background 
        investigation.
Assess Security Status. The purpose of assessing security status is to 
determine how individual operations compare to the baseline standards. 
The assessment procedures vary depending upon transportation mode. 
Assessments in rail and passenger transit are conducted by TSA's field 
inspector force, while highway and pipeline assessments are conducted 
by TSA's subject matter experts in each network management division. 
The assessments are structured to target key areas of concern and to 
capture essential data to evaluate current practice versus baseline 
standards.
        Freight Rail Status. In order to evaluate the security baseline 
        in freight rail, TSA in cooperation with the rail industry is 
        developing a comprehensive database driven system to identify 
        the specific locations where TIH risk is the highest. TSA 
        inspectors will verify attended/unattended status and proximity 
        to high risk structures. In addition to identifying high risk 
        locations, the database will give TSA the ability to identify 
        TIH cars in near real time. This capability will allow us to 
        more effectively respond to emerging threat situations.
            Further, TSA inspectors have conducted field interviews 
        with key rail management and personnel. Over 2,600 interviews 
        have been completed, focused on employee security awareness, 
        security procedures and systems to locate and protect TIH cars.

        Passenger Transit Status. The TSA inspector force has been 
        conducting assessments of passenger rail transit systems (both 
        commuter rail and other transit systems, including Amtrak). In 
        addition to the TSA assessments, self-assessments of 41 of the 
        largest transit agencies have been completed. We expect the 
        remainder to be completed shortly. TSA inspectors are verifying 
        and confirming the assessment results. While the data gathered 
        to date is preliminary, it does indicate varying security 
        status among systems. Once data is confirmed by inspectors, we 
        will have a much clearer understanding of how passenger transit 
        systems compare to the six fundamental security principles and 
        guide our plan to help us close those gaps.

        Highway (Trucking) Status. TSA conducts highway corporate 
        security reviews and assessments. Those assessments are 
        targeted at companies hauling TIH and other hazardous chemicals 
        of concern. TSA will compare actual practice to baseline 
        standards.

        Pipeline Status. TSA will use its ongoing corporate security 
        review process to determine the implementation of baseline 
        standards. TSA will continue to work with individual companies 
        to improve their security status.

Closing Gaps. Once assessments have identified the gaps in actual 
practice compared to baselines standards, TSA develops action plans to 
close the gaps and takes steps where necessary to close the gaps in all 
modes. We have a variety of capabilities at our disposal including 
industry agreements, voluntary measures, security directives, and 
regulatory action.

        Freight Rail-Close Gaps. In order to reduce the gaps between 
        actual practice and baseline standards, TSA pursued a two-
        pronged approach. We issued a Notice of Proposed Rulemaking 
        (NPRM) on December 21, 2006, which includes several provisions 
        to strengthen the security of the Nation's freight rail systems 
        in the highest threat urban areas. The proposed rule 
        establishes incident reporting procedures, codifies TSA's 
        inspection authority, requires rail company security 
        coordinators, and most importantly creates a positive chain of 
        custody from beginning to end which requires secure handoffs 
        when cars change hands.
            While the proposed rule provides a number of important 
        security initiatives, TSA believed that additional, speedier 
        steps could be taken. As a result, we reached an agreement with 
        the rail industry to reduce unattended TIH standstill car time 
        in high threat urban areas beginning in early 2007. A 
        comprehensive database will be used to identify highest 
        priority risk reduction opportunities and working in 
        conjunction with TSA, the rail carriers will develop site-
        specific action plans to reduce or remove the TIH risks. In 
        addition to reducing the TIH risks, TSA will work with rail 
        carriers to improve the security performance in the security 
        training and security procedures baseline. TSA is also 
        developing an improvised explosive device (IED) training course 
        for rail employees to be available in the second quarter of 
        2007.

        Passenger Transit-Close Gaps. The strategies to close security 
        gaps start with high risk/high consequence assets.
            As we know, an attack on underground, underwater, and other 
        critical infrastructure can dramatically increase the 
        consequences of an attack by magnifying the actual impact, 
        complicating the response efforts and substantially prolonging 
        the recovery time.
            We must be focused on minimizing high consequence risks. 
        TSA, in partnership DHS's Office of Grants and Training (G&T), 
        intends to leverage the Transit Security Grant Program funds to 
        focus on reducing risk and increasing security capabilities in 
        State and local transit systems with the most risk. We are 
        engaged in research to expand our understanding of the 
        vulnerabilities and the consequences of terrorist attacks on 
        our critical infrastructure. We are partnering with the 
        National Laboratories to complete assessments of a prioritized 
        list of transit tunnels and are pursuing mitigation solutions 
        with our industry partners now.
            While transit agencies cannot harden every entry point, nor 
        screen every passenger coming into busy stations, they can 
        deploy visible, unpredictable mobile teams that disrupt 
        terrorists' planning capabilities and provide high levels of 
        security. We are accomplishing this by expanding our canine 
        program and leveraging our security network to create surge 
        capacity with Visible Intermodal Protection Response (VIPR) 
        Teams.
            VIPR Teams, consisting of Surface Transportation Security 
        Inspectors (STSIs), canine teams, Federal Air Marshals (FAMs), 
        and advanced screening technology, provide TSA the ability to 
        leverage a variety of resources quickly and effectively. These 
        deployments are designed to raise the level of security in any 
        mode of transportation across the country in heightened 
        security environments. The teams work with local security and 
        law enforcement officials to supplement existing security 
        resources, provide deterrent presence and detection 
        capabilities, and introduce an element of unpredictability to 
        disrupt potential terrorist planning activities. More than 25 
        VIPR exercises have been conducted at key commuter and regional 
        passenger rail facilities, and more are planned throughout 
        2007.
            Explosives detection canine teams are being trained, 
        certified, and deployed by TSA to passenger transit systems. 
        Since late 2005, TSA's National Explosive Detection Canine Team 
        Program has worked in partnership with passenger transit 
        systems to train, certify, and deploy 53 explosives detection 
        canine teams to 13 major systems in a risk-based application of 
        resources. Forty of these teams are currently in place and the 
        other 13 are projected for training, certification, and 
        deployment in the coming months.
            I want to emphasize that our STSI workforce and the canine 
        teams we fund for passenger transit are just the point of the 
        spear. There are literally thousands of transit and rail law 
        enforcement and security officers on duty night and day to 
        provide security where they are needed for these segments of 
        the transportation network. Furthermore, each rail and 
        passenger transit system makes a deliberate and strategic 
        decision when they develop their annual budgets as to where 
        they should apply their revenues to close security 
        vulnerabilities. This approach creates a more effective network 
        of local security rather than deploying a far greater Federal 
        workforce to perform these same functions.
            Since the security of these systems is a shared 
        responsibility among Federal, State, and local partners, the 
        Administration has provided significant resources to bolster 
        these security efforts since 9/11. Funds from DHS grants 
        programs may be used for planning, training, exercises, 
        equipment, and other security enhancements. DHS has provided 
        roughly $18 billion in awards to State and local governments 
        for programs and equipment that help to manage risk.
            In addition to visible unpredictable deterrence, TSA 
        believes that training for key personnel is essential to rail 
        as its baseline of security. There are numerous passenger 
        transit training courses available today. TSA is working with 
        FTA to identify the specific type of training required for 
        employees (i.e., train operators, station managers, and control 
        system personnel, among others) in order to provide guidance to 
        systems.
            TSA is using the Transit Security Grants Program (TSGP) 
        program to drive improvement in the six security fundamental 
        areas mentioned earlier, including training for key personnel, 
        drills and exercises and public awareness and preparedness.
            The $175 million TSGP is the centerpiece of DHS's 
        interagency strategy to close gaps between operator security 
        status and baseline standards. For purposes of the TSGP, 
        ``transit'' includes Amtrak, which is eligible for $8.3 
        million, and commuter ferry systems, which are eligible for 
        $7.8 million. The TSGP guidance emphasized the six fundamental 
        principles previously mentioned, as well as efforts in support 
        of the national preparedness architecture. We expect to direct 
        transit grant awards based on our system assessments, security 
        fundamentals, and support of national preparedness. DHS 
        leverages the grants program to close the gaps at high risk 
        properties.

            Highway (Bus and Trucking)-Close Gaps. TSA is working on a 
        number of strategies to close gaps in performance versus actual 
        standards. We are currently considering a number of voluntary 
        incentive programs and regulatory options. TSA, in partnership 
        with G&T, is using the Intercity Bus Security Grants Program 
        which was funded at $12 million in FY 2007 to close gaps in the 
        over-the road bus industry and the Trucking Security Program 
        also funded at $12 million in FY 2007 to address security 
        issues in the trucking industry.

            Pipeline-Close Gaps. TSA has had an extensive working 
        relationship with the pipeline industry. TSA has prepared an 
        employee security awareness training program for all pipeline 
        employees, worked with operators to prepare or improve security 
        plans, conducted site specific visits to evaluate security 
        practices, and developed risk mitigation strategies for high 
        risk assets. This cooperative relationship has resulted in 
        improved conformity to baseline standards.

    Enhanced Systems of Security
    The final part of our strategy is to enhance the systems of 
security. As we take actions to close gaps, we also need to improve 
security technology and explore the way these technologies may apply to 
multiple modes of transportation.
    DHS is developing a number of screening techniques and technologies 
which may be implemented or deployed quickly to systems facing a 
specific threat, or in support of major events such as National Special 
Security Events (NSSEs). Pilot programs to test these technologies are 
already underway in several major American cities.
    Through the DHS Science and Technology (S&T) Directorate's Rail 
Security Pilot (RSP), DHS has field tested the effectiveness of 
explosives detection techniques and imaging technologies in partnership 
with the Port Authority of New York and New Jersey.
    The Systems Support Division (SSD) of G&T has conducted operational 
tests to evaluate manufacturer claims on ballistic-resistant trash 
receptacles and published a report of its findings to help ensure mass 
transit systems, among others, have the facts needed to guide critical 
procurement decisions. Similarly, SSD has published a closed circuit 
television (CCTV) technology handbook to provide a reference point on 
current CCTV technologies, capabilities and limitations.
    Finally, we maintain mobile security equipment, which can fit into 
two standard size shipping containers, for rapid deployment for use in 
screening and detection at any major system in the country should the 
need arise.
    In addition to technologies that may apply primarily to passenger 
modes, TSA is working closely with a number of parties to develop 
advanced railcar tracking systems with geofenced event-notification 
capabilities. TSA is also cooperating in efforts to develop next 
generation hazardous materials rail cars designed to better withstand 
terrorist attacks and operating accidents.
    TSA is working with selected hazardous material carriers to test 
truck tracking and control technologies. We are also in the early 
stages of security technology applications to the pipeline industry. 
Two specific areas TSA is involved in are blast mitigation and unmanned 
aerial surveillance vehicles.

Presidential Action and TSA's Objectively Measured Risk Reduction 
Process
    On December 5, 2006, the President issued Executive Order 13416, 
which builds upon the improvements made in surface transportation 
security since September 11, 2001, specifically actions taken under 
Homeland Security Presidential Directive 7, ``Critical Infrastructure 
Identification, Prioritization, and Protection'' (HSPD-7). Executive 
Order 13416 requires the strengthening of our Nation's surface 
transportation systems by the facilitation and implementation of a 
comprehensive, coordinated, and efficient security program. As the 
Federal official with principal responsibility for protecting surface 
transportation infrastructure, Secretary Chertoff has the lead in 
implementing this policy in coordination with the Secretary of DOT and 
the heads of other relevant agencies. The order sets deadlines for key 
security activities including security assessments of each surface 
transportation mode and an evaluation of the effectiveness and 
efficiency of current Federal Government surface transportation 
security initiatives. We continue to build upon current security 
initiatives to develop a comprehensive transportation systems sector 
specific plan, as defined in the National Infrastructure Protection 
Plan (NIPP). The five-part strategy cited earlier in my testimony is 
meeting the requirements of the Executive Order.

Annexes to DHS-DOT Memorandum of Understanding
    Three annexes to a September, 2004 memorandum of understanding 
between DHS and DOT have been completed and signed, evidencing the 
close and continuous cooperation between TSA and DOT to leverage 
resources.
    The first, between TSA and FRA, memorializes how we will coordinate 
our programs and initiatives at an agency level to better secure 
passenger and freight railroad transportation, and improve stakeholder 
relationships, and to include assisting railroads in prioritizing 
assets and addressing current and emerging threats and vulnerabilities. 
While TSA is responsible for rail security and FRA is responsible for 
rail safety, the annex provides detailed operational guidance to enable 
the two agencies to avoid duplication and maximize efficiency and 
cooperation in their planning, inspection, training and enforcement 
activities.
    The second annex is between the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) and TSA. This annex delineates our 
respective roles and responsibilities regarding pipelines and hazardous 
materials transportation security. It discusses sharing data and 
compliance information between the agencies, coordinating research and 
regulatory activities, providing joint public information and emergency 
response materials, collaboration in inspection and enforcement 
activities, and sharing technical support and budgets.
    The third annex is between the Federal Transit Administration (FTA) 
and TSA. It similarly provides for close and continuous cooperation 
between the two respective agencies in matters relating to security of 
the Nation's transit systems.
    Together, these annexes allow much more efficient use of the 
government's time and money, while maximizing the value of what these 
agencies can achieve for industry and the traveling public.

Summary
    TSA has a clear strategy to address surface transportation 
security. That strategy focuses first on identifying areas of high risk 
and then establishing baseline security standards to address those 
risks. Once baseline standards are established, we assess the actual 
status of security in the transportation industries, and in close 
coordination with stakeholders, devise strategies for bringing actual 
practices up to the standards we have established. Finally, we are 
developing advanced systems of security through a coordinated research 
and development program, to further enhance security beyond the 
baseline standards. In furtherance of this strategy, I have established 
an Office of Transportation Sector Network Management specifically to 
address the cross-cutting issues that affect all aspects of the 
transportation sector as a unified whole. They are implementing this 
strategy through cooperation with stakeholders where appropriate, 
regulation and inspection where necessary, and through the distribution 
of grants to assist the industry to implement these objectives we have 
set forth.
    I understand that rail/surface transportation security legislation 
is a priority for the Committee. The Department and TSA look forward to 
working cooperatively with the Committee as we have in the past. We 
appreciate your leadership in this area and the support that you have 
given to TSA.
    Thank you for this opportunity to inform you of our efforts in 
freight rail, commuter rail and other transit, trucking and pipeline 
security. I would be happy to answer any questions that you might have.

    Ms. Jackson Lee. Thank you very much, Mr. Hawley, for your 
testimony.
    Mr. Rosapep?

  STATEMENT OF TERRY ROSAPEP, DEPUTY ASSISTANT ADMINISTRATOR, 
       PROGRAM MANAGEMENT, FEDERAL TRANSIT ADMINISTRATION

    Mr. Rosapep. Thank you, Chairwoman Jackson Lee, Ranking 
Member Lungren, and members of the subcommittee. On behalf of 
the secretary of transportation and the administrator of the 
Federal Transit Administration, I am pleased to have this 
opportunity to update you on FTA's public transportation 
security program.
    America's transit systems are complex, dynamic and 
interconnected. Comprised of over 6,000 individual transit 
operators, these systems by nature are open and accessible, and 
therefore difficult to secure. Each workday, public 
transportation moves approximately 14 million passengers in the 
United States.
    After 9/11, FTA developed an aggressive transit security 
initiatives program. Key elements of this program included 
conducting readiness assessments at the 37 largest transit 
systems, representing upwards of 90 percent of all transit 
riders. These assessments provided a comprehensive view of 
transit system preparedness gaps and additional needs, and 
helped shaped the development of three important priorities 
that continue to form the fundamental baseline of transit 
security, those being employee training, public awareness, and 
emergency preparedness.
    Another key initiative was an outreach efforts called 
Connecting Communities Security and Emergency Preparedness 
forums. These forums, held at 18 regions across the country, 
improved public agency coordination and planning efforts 
between transit systems, emergency management agencies, law 
enforcement and other local partners.
    Another activity involved deploying technical assistance 
teams on-site at the 50 largest transit agencies. The tech 
assistance teams used FTA's top 20 security action items as an 
assessment tool to help transit agencies identify any gaps in 
their security programs and develop products to fill those 
gaps.
    Finally, security drill and exercise grants were provided 
to over 80 transit agencies. These grants help transit agencies 
plan, conduct and evaluate various types of security exercises, 
ranging from tabletop programs to large-scale interagency 
regional drills.
    In September of 2005, FTA, the Transportation Security 
Administration, and the Office of Grants and Training, signed 
an annex to the DOT-DHS memorandum of understanding regarding 
security roles and responsibilities. This MOU annex provides a 
structured framework for close collaboration among the federal 
partners. FTA, TSA and G&T continue to build upon the initial 
post-9/11 security initiatives, in partnership with industry 
stakeholders such as the American Public Transportation 
Association and local transit agencies.
    Key activities now under way include an eyes and ears 
public awareness toolkit known as Transit Watch. Transit 
agencies can use these toolkit materials or customize them to 
their own needs, such as New York City subway system's ``See 
Something, Say Something'' message to educate passengers to be 
mindful of their environment and how to react should they see 
something suspicious.
    In the area of training, the curriculum has been expanded 
with addition of new security courses such as the terrorist 
activity recognition and reaction training course for frontline 
transit employees. To date, almost 8,000 employees have taken 
this training. Another course titled ``Strategic 
Counterterrorism for Transit Managers'' has now been delivered 
to over 750 managers at local transit agencies.
    Another partnership initiative now under way is the 
Connecting Communities forums. The next phase of our new 
updated forums has begun. This week, a Connecting Communities 
forum is being held here in the national capital region at the 
WMATA training facility in Landover, Maryland.
    Reflecting the importance of stakeholder outreach, FTA, 
TSA, and G&T are conducting semiannual safety and security 
roundtables to address direct stakeholder outreach. The 
roundtables bring together the safety and security chiefs of 
the 50 largest transit agencies, plus other key industry 
leaders, for peer-to-peer informational exchanges. The last 
roundtable was held in Newark, New Jersey in December, and the 
next roundtable is tentatively scheduled for Chicago later this 
spring.
    Finally, we are working with our federal partners to 
develop security standards that provide transit agencies with 
consistent industry benchmarks and recommended practices. 
Leveraging the success of the FTA-APTA process for developing 
standards in other areas of transit, we are proceeding closely 
with our federal partners to develop standards in key security 
areas such as infrastructure protection, risk assessments, and 
emergency preparedness.
    Madam Chairwoman and members of the subcommittee, please be 
assured that FTA will continue to work closely with Congress 
and our partners at DHS to strengthen the nation's public 
transportation security. Thank you for this opportunity to 
speak today, and I will be happy to answer questions later.
    [The statement of Mr. Rosapep follows:]

                   Prepard Statement of Terry Rosapep

    Chairwoman Jackson Lee, Ranking member Lungren, and other members 
of the Subcommittee, thank you for this opportunity to testify today on 
behalf of the Secretary of Transportation and the Federal Transit 
Administration (FTA). I am pleased to have this opportunity to update 
you on transit security and how the U. S. Department of 
Transportation's (DOT) initiatives in that area support the Department 
of Homeland Security's (DHS) transportation security mission.

    FTA and Transit Security
    America's transit systems are dynamic, interconnected, and composed 
of over 6,000 local systems. Unlike airports, these systems are also 
inherently open, and therefore difficult to secure. In New York's Penn 
Station alone, more than 1,600 people per minute pass through its 
portals during a typical rush hour. The combination of open access and 
large numbers of people makes transit systems an inviting target for 
those who seek to cause the United States harm. The deliberate 
targeting of the public transportation systems in Tokyo, Moscow, 
Madrid, and London by terrorists underscores this point.
    FTA, the Federal Railroad Administration (FRA), other Federal and 
state partners, and the transit industry have built a solid foundation 
for security in the years following the attacks of September 11 by 
focusing on three security priorities: public awareness, employee 
training, and emergency preparedness. After September 11, 2001, FTA 
undertook an aggressive nationwide security program and led the initial 
Federal effort on transit security. The initial response included 
conducting threat and vulnerability assessments in 37 large transit 
systems, 30 of which carry almost 90 percent of all transit riders. The 
assessments at that time gave us a comprehensive view of transit system 
readiness, vulnerabilities, and consequences, and identified the three 
important priorities that continue to form the fundamental baseline of 
DOT's transit security initiatives: employee training, public 
awareness, and emergency preparedness.
    Today, under Executive Order 13416, FTA, in partnership with FRA 
and DHS, continues to build upon these priorities as they provide 
focused benefits to the dynamic, open nature of America's transit 
network. Employee Training develops the skills of 400,000 front-line 
transit employees who are the eyes and ears of the transit network and 
first line of defense against terrorism. Public Awareness programs such 
as Transit Watch educate passengers to be mindful of their environment 
and how to react should they see something suspicious. Emergency 
Preparedness programs build local, collaborative relationships within 
communities that allow for quick and coordinated response in a crisis. 
Over the last five years, we have learned that terrorists adapt and 
change their strategies in response to security measures. But 
regardless of where an attack comes from or how it is devised, security 
training of employees and the awareness of passengers can help to 
prevent or mitigate it.
    In 2002, to help guide transit agency priorities, FTA issued a 
``Top 20 Security Action Item List'' to improve transit safety and 
security operations, particularly with regard to employee training, 
public awareness, and emergency preparedness. In a joint effort 
coordinated with the Mass Transit Sector Coordinating Council, FTA, and 
the Transportation Security Administration (TSA), the Security Action 
Items for transit agencies were revised in 2006.
    The Safe, Accountable, Flexible, Efficient Transportation Equity 
Act--A Legacy for Users (SAFETEA-LU) mandates several steps to move 
transit security forward through collaboration among federal, state, 
local, and private entities. In September 2005, FTA and two agencies 
within DHS--TSA and the Office for Domestic Preparedness, now the 
Office of Grants & Training (G&T)--signed the Public Transportation 
Security Annex to the DOT/DHS Memorandum of Understanding (MOU) on 
security. The MOU recognizes that DHS has primary responsibility for 
transportation security and that DOT plays a supporting role, providing 
technical assistance and assisting DHS when possible with 
implementation of its security policies as allowed by DOT statutory 
authority and available resources. The Annex identifies specific areas 
of coordination among the parties, including citizen awareness, 
training, exercises, risk assessments, and information sharing. To 
implement the Annex, the three agencies have developed a framework that 
leverages each agency's resources and capabilities.
    With the Annex in place as a blueprint, FTA, TSA and G&T have 
established an Executive Steering Committee. Since 2005, the Executive 
Steering Committee has interacted with DHS, DOT, FRA and transit 
industry leaders. This committee oversees eight project management 
teams that spearhead the Annex's programs. Each of these programs 
advances one or more of FTA's three security priority areas (public 
awareness, employee training, and emergency preparedness). We have been 
implementing the Annex energetically since its inception.

The eight teams are as follows:
    1. Risk Assessment and Technical Assistance Team
        The Risk Assessment and Technical Assistance team is using a 
        risk-based approach to transit security, working toward one 
        industry model for conducting transit risk assessments. The 
        team issued the ``TSA/FTA Security and Emergency Management 
        Action Items'' and is developing the Next Generation Security 
        and Emergency Management Technical Assistance Program Master 
        Plan to identify and prioritize industry security needs.

    2. Transit Watch and Connecting Communities Team
    The Transit Watch and Connecting Communities team is reinstating 
and expanding these two FTA programs, which foster public awareness and 
coordinated emergency response. The initial roll-out of Transit Watch 
helped to institute this program at many transit agencies across the 
country. The next phase of Transit Watch, recently released, includes a 
focus on unattended bags, Spanish language materials and emergency 
evacuation instructions. Twelve new Connecting Communities forums are 
scheduled for 2007; the second forum is being held this week in the 
National Capitol Region, at WMATA's Turner facility in New Carrollton, 
Maryland.

    3. Training Team
    The Training team is developing new courses on timely security 
topics such as security design considerations and National Incident 
Management System (NIMS) for transit employees, and also working 
towards developing one integrated security training curriculum.

    4. Safety and Security Roundtables Team
    The Safety and Security Roundtables team works on direct 
stakeholder outreach. They are responsible for planning two roundtables 
each year for the safety and security chiefs of the 50 largest transit 
agencies and Amtrak. The roundtable format emphasizes peer-to-peer 
informational exchanges among the participants. The last roundtable was 
held in Newark, New Jersey in December 2006 and the next roundtable is 
tentatively scheduled for Chicago this spring.

    5. Web-based National Resource Center Team
    The Web-based National Resource Center team is developing a secure 
library site for information on best practices, grants, and other 
security matters. Access to the National Resource Center will be 
available to security chiefs of transit agencies.

    6. Emergency Drills and Exercises Team
    The Emergency Drills and Exercises team is updating the program to 
incorporate DHS Exercise program guidance. The scope of this effort 
includes both tabletop exercises and regional field drills.

    7. Annual Plan and Grant Guidance Team
    FTA lends its subject matter expertise to the DHS Infrastructure 
Protection grant process. In the context of the MOU Annex, FTA is also 
able to leverage its longstanding working relationships with transit 
agencies to help TSA vet security initiatives.

    8. Standards and Research Team
    The Standards and Research team's primary focus is the development 
of industry security standards. This is a critical area because it 
provides transit agencies with consistent industry benchmarks and 
recommended practices. Leveraging the success of the FTA, FRA and 
American Public Transportation Association (APTA) process for 
developing standards in other areas, FTA is proceeding closely with its 
Federal partners to develop standards in key areas such as 
infrastructure protection, risk assessments and emergency preparedness.
    I would like to add that FTA also supports security projects 
through its Urbanized Area Formula Grant Program. Under this program, 
transit agencies are required to spend at least 1 percent of their 
annual formula fund allocation on public transportation security, or to 
certify that they do not need to spend 1 percent of their allocation 
for such purposes. For transit agencies in Urbanized Zone Areas (UZAs) 
over 200,000 in population, only capital projects are eligible to count 
towards the 1 percent security threshold. SAFETEA-LU usefully expanded 
the definition of capital projects to include security planning, 
training and emergency drills & exercises. In contrast to TSA's broad 
statutory authority for security in all modes of transportation, FTA 
has limited statutory and regulatory authority on security matters, and 
does not have a dedicated security grant program. Historically, FTA has 
assisted transit agencies in improving their security practices through 
training programs, research, technical assistance and oversight 
activities. FTA and FRA continue to work together to improve passenger 
rail and rail transit security. FTA will continue to use all of these 
resources, in close collaboration with TSA and G&T to improve transit 
security.
    Chairwoman Jackson Lee, Ranking Member Lungren, and other members 
of the Subcommittee, I want to assure you that FTA has, and is, using 
all of the resources and capabilities in its toolbox to strengthen the 
joint security initiative formalized in the September 2005 Public 
Transportation Security Annex to the DOT/DHS MOU. The MOU Annex expands 
that toolbox. Since September 11, 2001, transit security has benefited 
from exceptionally strong partnerships, and genuinely collaborative 
initiatives, among the industry, different agencies and departments, 
and the MOU Annex captures that spirit of cooperation.
    Please also be assured that the FTA will continue to strengthen 
public transportation security. We look forward to continuing to work 
with Congress to achieve the goal of protecting our Nation's public 
transportation infrastructure. I would be happy to answer any questions 
you may have. Thank you.

    Ms. Jackson Lee. Mr. Rosapep, thank you for your testimony.
    I now recognize Mr. Haley from the FRA to summarize his 
statement for 5 minutes.

   STATEMENT OF MICHAEL HALEY, DEPUTY CHIEF COUNSEL, FEDERAL 
   RAILROAD ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Haley. Chairman Jackson Lee, Ranking Member Lungren, 
Chairman King and other members of the subcommittee, I am 
pleased to be here to testify on behalf of the secretary of 
transportation and the Federal Railroad Administration about 
the security of our nation's passenger and freight rail network 
and the efforts that DOT is making to enhance rail safety and 
security.
    FRA's primary mission is to promote the safety of the U.S. 
rail industry and to reduce the number and severity of 
accidents and incidents arising from railroad operations. Since 
railroad safety and security are often intertwined, we are 
mindful of security concerns when conducting safety 
inspections, drafting railroad safety regulations, establishing 
our research and development program, and conducting training 
and outreach to the railroad industry.
    DHS and TSA have primary responsibility for transportation 
security, as reflected in the MOU between DHS and DOT, with FRA 
providing support in the rail sector. FRA works closely with 
TSA and the rail industry on a daily basis in addressing 
railroad security and safety issues, complementing the efforts 
of other DOT partners.
    My written testimony provides and overview of the railroad 
industry and discusses in detail FRA's key rail safety and 
security initiatives, including research and development. My 
oral testimony will be focused on FRA's working relationship 
with TSA and recent DOT initiatives in the railroad security 
area.
    TSA and FRA have signed an annex to the DHS-DOT MOU. This 
annex provides for close cooperation between the two agencies 
on their programs and activities affecting railroad security, 
including inspection activities, drafting of regulations and 
legislation, research and development, and response to threats 
to railroad security.
    I am pleased to report that TSA and FRA are working well 
together to implement the annex. In the railroad security area, 
as outlined in my written testimony, the freight railroads take 
railroad security very seriously. Immediately after 9/11, the 
railroads identified critical infrastructure and developed 
security plans to protect that infrastructure, their employees 
and the general public.
    In 2003, the Pipeline and Hazardous Materials Safety 
Administration, PHMSA, required railroads in certain classes 
and quantities of hazardous materials to develop security plans 
and to provide security training for hazardous material 
employees. All of FRA's 71 hazmat inspectors and specialists, 
along with 17 FRA certified state inspectors, devote a portion 
of their time to reviewing railroad and shipper security plans 
for compliance with the PHMSA regulations.
    To date, FRA personnel have reviewed more than 6,000 
security plans, including plans for shippers by rail and the 
plans of all Class I freight railroads, and conducted more than 
4,000 inspections for compliance with the security training 
requirements of the PHMSA regulation. Upcoming reviews will 
focus on the shortline railroads.
    FRA and PHMSA have worked closely with TSA to build upon 
the railroad security plans and the PHMSA security rule to 
further enhance rail security. This close collaboration has 
resulted in the following progress. FRA and PHMSA have assisted 
TSA in conducting security assessments of high-threat urban 
area corridors carrying significant volumes of toxic inhalation 
hazardous materials, more commonly referred to as TIH, and 
further assessments are planned.
    FRA and PHMSA assisted TSA in developing the 27 voluntary 
security action items that the railroads have agreed to 
implement to improve the security of rail movements of TIH 
materials, particularly in high-threat urban areas. The FRA, 
PHMSA and TSA have worked together in the development of 
notices of proposed rulemaking documents on railroad security 
recently issued by PHMSA and TSA. TSA has assisted in the 
development of an FRA passenger equipment rulemaking.
    In addition, FRA and TSA have coordinated on railroad 
security R&D. The recently issued PHMSA-proposed rule spells 
out in more detail the hazmat security planning railroads must 
do. Specifically, the PHMSA proposal would require that 
railroads compile annually data on specific hazardous material 
shipments; use the data annually to analyze safety and security 
risk along rail transportation routes where those materials are 
transported, and offer one possible alternative to each route; 
use the analysis in selecting the safest and most secure 
commercially practicable routes that the carriers are 
authorized to operate over in transporting these materials; 
enhance their current security plans to better address enroute 
security and delays in transit for such materials, including 
limiting access to the materials, mitigating the risk to 
population centers, and setting out measures to be taken in the 
event of escalating threat levels; and finally, requiring 
carriers pre-trip inspection of hazardous material rail cars to 
include an inspection for signs of tampering.
    As outlined in my testimony, FRA will be conducting a 
variety of security training courses for rail, labor and law 
enforcement personnel this year. FRA will also be exploring 
leveraging the National Labor College George Meany Training 
Campus to assist in providing security awareness training for 
railroad employees who are not receiving security training 
under FRA's emergency preparedness regulation or PHMSA's 
security regulation.
    In the passenger area, FRA requires each railroad that 
operates intercity or commuter rail passenger service, or that 
hosts operations of such service, to adopt and comply with 
written emergency preparedness plans approved by FRA. The 
regulation makes clear that ``emergency'' includes security 
situations. Each plan must address employee training and 
qualifications.
    Ms. Jackson Lee. Mr. Haley? Will you try to wrap up in a 
short order please?
    Mr. Haley. We will follow up to ensure that the emergency 
preparedness are being complied with, both from a planning and 
from a training perspective. We have a variety of rulemakings 
under way that will enhance railroad security, as well as 
research and development. Those initiatives are set forth in my 
testimony.
    We look forward to working with the subcommittee in 
furthering the security of the nation's rail network. I would 
be pleased to answer any questions you might have.
    [The statement of Mr. Haley follows:]

                 Prepared Statement of Michael T. Haley

    Chairwoman Jackson Lee, Ranking Member Lungren, and other members 
of the Subcommittee, I am pleased to be here today to testify, on 
behalf of the Secretary of Transportation and the Federal Railroad 
Administration (FRA), about the security of our Nation's passenger and 
freight railroad network and the efforts that the Department of 
Transportation (DOT) is making to enhance rail safety and rail 
security, in support of the Department of Homeland Security (DHS). 
FRA's primary mission is to promote the safety of the U.S. railroad 
industry and to reduce the number and severity of accidents and 
incidents arising from railroad operations. Our railroad safety mission 
necessarily includes our involvement in railroad security issues. DHS 
and its Transportation Security Administration (TSA) have primary 
responsibility for transportation security, with FRA providing support 
in the railroad sector. FRA works closely with TSA and the railroad 
industry on a daily basis in addressing railroad safety issues that 
involve security, participates in the Government Coordinating Council 
for Rail, and contributes its expertise to the implementation of 
Executive Order 13416: Strengthening Surface Transportation Security, 
including providing input for the National Infrastructure Protection 
Plan and Sector Specific Plans, as well as the National Strategy for 
Transportation Security.
    My testimony today will provide some background on FRA's railroad 
safety program, describe the role that FRA plays in railroad security, 
and discuss railroad safety and security initiatives. We stand ready to 
work with the Subcommittee in furthering the security of our Nation's 
railroad network.

Overview of the Railroad Industry and its Safety Record
    The U.S. railroad network is a vital link in the Nation's 
transportation system and is critical to the economy, national defense, 
and public health. Passenger and freight railroads operate over 170,000 
route miles of track and employ over 232,000 workers. Demand for both 
freight and intercity and commuter railroads continues to grow. The 
rail system is diverse and expansive. Security risks are inherent in 
its supporting infrastructure, as well as in the people and products 
moving through it. Most of the larger railroads have their own police 
force, and they are supplemented by State and local law enforcement.
    Amtrak, the Alaska Railroad Corporation, and commuter railroads 
provide passenger rail service to more than 500 million passengers 
yearly. Passenger operators face many challenges in their efforts to 
provide a secure public transportation environment. By definition, the 
systems are open, providing numerous points of access and egress 
leading to high passenger turnover and making them difficult to monitor 
effectively. Amtrak, for example, operates as many as 300 trains per 
day serving over 500 stations in 46 States, and Amtrak trains use 
tracks owned by freight railroads except for operations in the 
Northeast Corridor and in Michigan.
    Privately-owned freight railroads connect industries and businesses 
with each other across the country and (through our ports) with markets 
overseas, moving 42 percent of all intercity freight, measured in ton-
miles, including 67 percent of the coal used by electric utilities to 
produce power, and chemicals used in manufacturing and water 
purification. Seven Class I railroads haul over 90 percent of the rail 
cargo in the U.S., with the remaining 10 percent being transported by 
30 regional railroads and over 500 local railroads. Typically, 
railroads move about 1.7 to 1.8 million carloads of hazardous materials 
(hazmat) yearly, with roughly 105,000 of these carloads being toxic 
inhalation hazard (TIH) materials, such as chlorine and anhydrous 
ammonia. Over 64 percent of TIH materials are currently transported by 
rail.
    The railroads have an outstanding record in moving all goods 
safely. See statistical analysis at Appendix A. The vast majority of 
hazardous materials shipped by rail every year arrive safely and 
without incident, and train accidents involving a release of hazmat 
that causes death are infrequent and rare, even while rail traffic 
volumes have increased steadily. As discussed below, DOT has an 
aggressive and comprehensive action plan to address the root causes of 
hazmat accidents, to examine and improve the integrity of rail tank 
cars used to transport hazmat, and to improve the railroads' hazmat 
security plans. See summary of the status of implementing FRA's 
National Rail Safety Action Plan at Appendix B. In addition, DOT's 
Pipeline and Hazardous Materials Safety Administration (PHMSA) annually 
provides grant funds to States and Indian tribes to assist in the 
development, improvement, and implementation of hazmat emergency 
response plans, and to train emergency responders to respond to hazmat 
accidents and incidents; details on this program are contained in 
PHMSA's Web site (hazmat.dot.gov).
    Maintaining a safe and secure railroad transportation system is 
essential, and safety and security issues are being jointly addressed 
by the industry, DOT, and TSA.

FRA's Railroad Safety Program
    FRA is the DOT agency charged with carrying out the Federal 
railroad safety laws. The laws provide FRA, as the Secretary's 
delegate, with very broad authority over every area of railroad safety. 
In exercising that authority, the agency has issued and enforces a wide 
range of railroad safety regulations. Rail safety and security are 
interrelated, and FRA considers security concerns when developing 
rules. For example, FRA's January 2002 final rule barring most 
extraterritorial dispatching of U.S. railroad operations addresses the 
agency's concerns about the security of foreign dispatching facilities. 
Similarly, FRA's rule on passenger train emergency preparedness, 
discussed more fully below, requires carriers to prepare plans that 
deal with criminal as well as accidental events. While FRA's rules are 
focused on the safety of railroad operations, they necessarily have 
some bearing on security. For example, a railroad inspector performing 
an inspection required by an FRA safety regulation could potentially 
uncover a hazardous condition that was intentionally caused by 
terrorist activity. Similarly, Federal passenger and freight equipment 
standards are intended to ensure that the equipment can withstand 
forces of derailments and collisions, whether caused by accidents or 
deliberate acts, thereby helping to protect passengers, employees, and 
surrounding communities.
    In addition, FRA enforces in the rail mode of transportation the 
Hazardous Materials Regulations, which are promulgated by PHMSA. These 
regulations include requirements that railroads and other transporters 
of hazmat, as well as shippers, have and adhere to security plans and 
also train their employees involved in offering, accepting, or 
transporting hazmat on both safety and security matters, as discussed 
more fully below.
    In May 2005, DOT and FRA announced the National Rail Safety Action 
Plan, a blueprint to comprehensively address critical safety issues 
facing the railroad industry with the following strategy:
        <bullet> Target the most frequent, highest-risk causes of train 
        accidents;
        <bullet> Focus FRA's oversight and inspection resources on 
        areas of greatest concern; and
        <bullet> Accelerate research efforts that have the potential to 
        mitigate the largest risks.
    FRA's plan includes initiatives in several areas: reducing human 
factor-caused train accidents (the largest category of train 
accidents); acting to address the serious problem of fatigue among 
railroad operating employees; improving track safety; improving 
emergency preparedness and enhancing hazmat safety, including 
evaluating and improving the integrity of tank cars used to transport 
hazmat; strengthening FRA's safety compliance program; and improving 
highway-rail grade crossing safety. One of the primary elements of the 
Action Plan is the implementation of a National Inspection Plan, which 
uses sophisticated trend analysis to ensure that FRA is properly 
allocating its inspectors so that they are directing their efforts on 
areas of greatest safety concern. A summary of the steps FRA has taken 
in implementing the Action Plan is attached to my statement.
    Though the Action Plan is focused on rail safety, rail security 
will also be improved. In particular, enhancements to hazmat safety and 
emergency preparedness will result in enhancements to rail security.

The Security Role of FRA and Other DOT Agencies Before and After 
September 11
    FRA's involvement in railroad security predates the terrorist 
attacks on September 11, 2001. From October 1995 (when a deliberate act 
of vandalism caused a fatal Amtrak derailment near Hyder, Arizona) 
through March 2006 (when the USA PATRIOT Improvement and 
Reauthorization Act of 2005 was enacted), FRA helped develop, and 
worked with Congress to secure the enactment of, Federal criminal 
legislation to deter and punish more effectively terrorist attacks 
against railroads and mass transportation systems. See 18 U.S.C. 
Sec. 1992. Additionally, in 1998 FRA issued a regulation requiring 
passenger railroads to prepare, and secure FRA approval of, plans to 
address emergencies, including security threats, to train employees on 
the plans, and to conduct emergency simulation drills, as noted above 
and discussed more fully below. In coordination with DHS, FRA will be 
exploring leveraging the National Labor College, George Meany Training 
Campus, to assist in providing security awareness training for railroad 
employees who are not receiving security training under FRA's emergency 
preparedness regulation or PHMSA's security regulation. FRA also issued 
comprehensive safety standards for passenger equipment in 1999, 
including requirements for crashworthiness, fire safety, and emergency 
systems that help protect against accidental events as well as 
deliberate acts. See 49 CFR Part 238.
    Since 9/11, FRA has been actively engaged in the railroad 
industry's response to the terrorist threat. The railroads have 
developed their own security plans, and FRA has worked with the 
railroads, rail labor, and law enforcement personnel to develop the 
Railway Alert Network, which permits timely distribution of information 
and intelligence on security issues. Working with DOT's Federal Transit 
Administration (FTA), FRA has participated in security risk assessments 
on commuter railroads, and we have conducted security risk assessments 
of Amtrak as well. FRA's security director works on a daily basis with 
government agencies and the railroad industry to facilitate 
communications on security issues, and also participates in security 
training, reviews security plans, and performs other activities to 
promote rail security. For example, in 2007, FRA intends to conduct at 
least 15 security training sessions for rail labor organizations, as 
well as four sessions at the FBI Academy on railroad security and 
emergency response for law enforcement personnel.
    In September 2004, DOT and DHS entered into a memorandum of 
understanding (MOU) concerning their respective roles on security 
issues. The MOU notes that DHS has primary responsibility for security 
in all modes of transportation but also recognizes that DOT plays a 
supporting role, providing technical assistance and assisting DHS when 
possible with the implementation of its security policies. The MOU 
reflects the agencies' shared commitment to a systems risk-based 
approach and to development of practical solutions, recognizing that 
each agency brings core competencies, legal authorities, resources, and 
expertise to the railroad transportation mission. The MOU requires 
early coordination between the parties on the development of 
regulations affecting security. Separate annexes have been signed 
concerning the implementation of the Homeland Security Council's 
recommendations concerning TIH materials, and concerning the day-to-day 
coordination between FRA and TSA, FTA and TSA, and PHMSA and TSA on 
security matters.
    The FRA-TSA annex provides for close cooperation between the two 
agencies on their programs and activities, including regulations 
affecting railroad security, legislation, research and development, 
inspection activities, and the response to threats to railroad security 
in order to maximize passenger and freight railroad security while 
minimizing disruptions to railroad operations to the extent 
practicable. The agreement provides that if an FRA inspector observes a 
significant security issue, the information will be provided to TSA and 
the railroad; similarly, if a TSA inspector observes a significant rail 
safety issue, the information will be provided to FRA and the railroad. 
FRA has one full-time employee addressing rail security matters, and 
all of our 71 hazmat inspectors and specialists, along with 17 State 
inspectors, devote a portion of their time to reviewing railroad and 
rail shipper security plans for compliance with PHMSA's hazmat security 
regulations discussed below.
    FRA, FTA, and PHMSA have assisted DHS and TSA in the preparation of 
the National Infrastructure Protection Plan issued in June, 2006, and 
have actively supported DHS and TSA's efforts to develop Sector-
Specific Plans for critical infrastructure protection, as required by 
Executive Order 13416.

Freight Railroad Security
    Freight railroads have voluntarily developed and adopted security 
plans based on comprehensive risk analyses, and the national 
intelligence community's best practices, that address the security not 
only of hazmat but of freight in general. The Association of American 
Railroads (AAR) has established guidance for the major freight 
railroads in the form of a model strategic security plan. The railroad 
industry has also developed a detailed protocol (AAR Circular OT-55-I) 
on recommended railroad operating practices for transportation of high-
risk hazardous materials (including TIH materials). FRA, PHMSA, and TSA 
have jointly worked with the railroad industry to build upon the 
railroads' security efforts through vulnerability assessments, 
development of voluntary Security Action Items, and rulemakings. 
Additionally, FRA has arranged a conference under 49 U.S.C. Sec. 333 
(``section 333'') to permit railroads and chemical shippers to discuss 
routing options for the movement of TIH materials, as explained more 
fully below.
    A special focus for FRA and DOT, collectively, is the security of 
hazmat transported by rail. A major initiative has been PHMSA's March 
2003 regulation requiring each shipper and carrier of significant 
quantities (placardable amounts) of hazmat to adopt and comply with a 
security plan. See 49 CFR Sec. 172.800 et seq. Under the PHMSA 
regulation, security plans must include an assessment of security risks 
and appropriate countermeasures or mitigation strategies, or both, to 
address those risks. The plans must, at a minimum, address three 
specific areas: the security of company personnel; unauthorized access 
to company property; and the security of hazmat shipped or transported 
by the company from its origin to its destination. To assist railroads 
that transport hazmat and shippers that offer hazmat for transportation 
by rail to comply with this regulation, particularly small- and medium-
sized companies, PHMSA developed a program on how to write and 
implement security plans for their companies.
    FRA recognizes that railroad and shipper employees' awareness and 
understanding of the PHMSA regulation and procedures governing the safe 
and secure transportation of hazmat shipments are critical. Therefore, 
PHMSA's regulation provides for safety and security training for 
employees engaged in the transportation of hazmat. Specifically, each 
shipper and carrier of significant quantities of hazmat is also 
required to conduct two types of security training for its employees: 
security awareness training that provides an awareness of risks 
associated with hazmat transportation and methods designed to enhance 
hazmat transportation security, and in-depth security training 
concerning the company's PHMSA-required security plan and its 
implementation. These training requirements are also recurrent; 
employees must receive the required training at least every three 
years. To date, FRA personnel have reviewed more than 6,105 security 
plans (including plans for shippers by rail and the plans for all Class 
I freight railroad carriers) and conducted 4,054 inspections for 
compliance with the security training requirements. Moreover, FRA's 
security director is currently working with the American Short Line and 
Regional Railroad Association to provide hazmat security training and 
conduct security reviews at approximately 125 short line railroads in 
2007.
    In April 2004, DHS and DOT took specific actions to improve the 
security of rail shipments of TIH materials. As part of this 
initiative, DHS and DOT, in cooperation with the railroads, are 
assessing the vulnerabilities of High Threat Urban Areas (HTUAs) 
through which TIH materials move by rail in significant quantity. These 
assessments helped result in the railroads agreeing to voluntarily 
implement 27 Security Action Items designed to improve the security of 
rail movements of TIH materials. The Action Items address system 
security and access control (i.e., practices affecting the security of 
railroads and their property), as well as en-route security (the actual 
movement and handling of railcars containing TIH materials), 
particularly in HTUAs. Implementation of the first 24 Action Items had 
begun when they were announced in June 2006, and implementation of the 
remaining three Action Items dealing with HTUAs had also been initiated 
when they were announced on November 21, 2006.
    In August 2004, DOT and TSA published a notice and request for 
comments in the Federal Register asking for input on aspects of TIH 
rail shipments, the DOT security program requirement, and the need for 
additional regulation. Following review and consideration of the 
comments received, PHMSA, in consultation with FRA and TSA, published a 
notice of proposed rulemaking on December 21, 2006, to revise current 
requirements for the safe and secure rail transportation of hazmat. See 
71 FR 76833. Likewise, TSA concurrently proposed complementary 
enhancements to rail security requirements. See 71 FR 76852. 
Specifically, PHMSA's proposal would require railroads to----
        <bullet> compile annual data on specified hazmat rail 
        shipments;
        <bullet> use the data annually to analyze safety and security 
        risks along rail transportation routes where those materials 
        are transported and one possible alternative to each route;
        <bullet> utilize the analyses in selecting the safest and most 
        secure, commercially practicable routes the carrier is 
        authorized to operate over in transporting these materials;
        <bullet> address the security risks associated with shipments 
        delayed in transit or temporarily stored in transit as part of 
        their security plans;
        <bullet> notify consignees if there is a significant, unplanned 
        delay affecting the delivery of certain types of hazardous 
        material;
        <bullet> work with shippers and consignees to minimize the time 
        a rail car containing certain types of hazardous materials is 
        placed on a track awaiting pick-up or delivery or transfer from 
        one carrier to another;
        <bullet> notify storage facilities and consignees when rail 
        cars containing certain types of hazardous materials are 
        delivered to a storage or consignee facility; and
        <bullet> conduct visual security inspections at ground level of 
        rail cars containing hazardous materials to inspect for signs 
        of tampering or the introduction of an improvised explosive 
        device (IED). PHMSA and FRA have scheduled two public hearings 
        to obtain oral comments on the proposed requirements with a 
        view to issuing a final rule. The first hearing was just held 
        on February 1, here in Washington, D.C., and the second will be 
        held on February 9, in Dallas, Texas.
    DHS has provided funding to the Railroad Research Foundation, a 
nonprofit organization devoted to sustaining a safe and productive 
railroad industry, to develop a Web-based tool to calculate rail-route-
specific hazmat risks, and assist in route selection decisions. This 
tool would be available to rail carriers in performing route analysis, 
and to DOT, TSA, and government emergency planners.
    In late 2005, FRA granted a request by the AAR and the American 
Chemistry Council to convene a ``section 333'' conference to discuss 
ways to minimize security and safety risks flowing from the 
transportation by rail of TIH materials. Section 333 of title 49 of the 
United States Code authorizes the FRA Administrator, as delegate of the 
Secretary of Transportation, to convene conferences at the request of 
one or more railroads to address coordination of operations and 
facilities of rail carriers in order to achieve a more efficient, 
economical, and viable rail system. Persons attending a section 333 
conference are immune from antitrust liability for any discussions at 
the conference, and can also receive immunity for any resulting 
agreements that receive FRA approval. The conference has been carefully 
structured to minimize antitrust concerns involving the chemical 
manufacturers and shippers. The conference provides the railroads and 
chemical manufacturers and shippers with the opportunity to meet and 
discuss approaches to reduce the amount of TIH materials moved by rail, 
and to enhance the safety and security of TIH materials that are moved. 
FRA, PHMSA, and representatives from the Department of Justice, the 
Federal Trade Commission, TSA, and the Surface Transportation Board 
(STB) are participating in these discussions. The initial efforts of 
the conference are focused on the rail transportation of chlorine and 
anhydrous ammonia, because those chemicals represent over 80 percent of 
all TIH rail shipments. FRA has met with the rail carriers to discuss 
modeling and routing options. Further meetings with the rail carriers, 
as well as separate meetings with shippers of chlorine and anhydrous 
ammonia by rail, have begun. In some instances, the projects agreed to 
at the conference may need the approval of the STB in order to be 
implemented.
    While we must remain ever vigilant to secure hazmat shipments on 
our Nation's railroads, for the sake of railroad employees and the 
public whom we all serve, it bears emphasizing that all but a very few 
hazmat shipments arrive at their destinations safely. Considering just 
chlorine, for example, between 1965 (the earliest data available) and 
2005 (the last year for which complete data are available) there have 
been at least 2.2 million tank car shipments of chlorine--only 788 of 
which were involved in accidents (0.036 percent of all the shipments). 
Of those accidents, there were 11 instances of a catastrophic loss 
(i.e., a loss of all, or nearly all) of the chlorine lading (0.0005 
percent of all the shipments). Of the 11 catastrophic losses, four 
resulted in fatalities (0.00018 percent of all the shipments). For all 
hazardous materials, in the 13 years from 1994 through 2006, hazardous 
materials released in railroad accidents resulted in a total of 14 
fatalities. While one death is obviously too many, the record of 
transporting these commodities is very good, and we believe the 
initiatives underway will further improve upon that record.

Passenger Railroad Security
    As discussed earlier, in the area of passenger railroad security, 
FRA requires railroads that operate intercity or commuter passenger 
train service or that host the operation of such service to adopt and 
comply with written emergency preparedness plans approved by FRA. See 
49 CFR Part 239. Emergencies include security-related situations. Each 
plan must address employee training and qualification, and provide for 
both initial and recurrent training of on-board and control center 
employees to determine the extent of compliance with the plan. 
Additionally, each railroad must establish and maintain a working 
relationship with emergency responders on its line by taking measures 
such as developing and making available a training program on the plan 
and inviting the emergency responders to participate in emergency 
simulations. The regulation requires railroads providing passenger 
service to periodically conduct full-scale passenger train emergency 
simulations (with actual equipment and simulated victims) and conduct a 
debriefing and critique session after actual or simulated passenger 
train emergency situations. FRA will continue monitoring passenger 
railroads for compliance with this regulation and attend each full-
scale simulation and follow-up review session, as the Long Island Rail 
Road has scheduled for next month with the participation of the New 
York City Fire Department.
    In 2003, under the auspices of FRA's Railroad Safety Advisory 
Committee (RSAC), FRA initiated a review of existing passenger train 
safety needs and programs for the purpose of developing any necessary 
recommendations on actions to advance the safety of passenger rail 
service. The RSAC is a forum for developing recommendations to FRA on 
rulemakings and other safety program issues, and it includes 
representatives from all of the rail industry's major groups, State 
representatives, the National Transportation Safety Board (NTSB), and 
other stakeholders. As part of this effort, the Passenger Safety 
Working Group was established, as well as four smaller task forces, 
notably the Emergency Preparedness Task Force. The Emergency 
Preparedness Task Force is specifically devoted to consideration of 
passenger train emergency preparedness issues, and includes 
representatives from railroads, rail labor organizations, the NTSB, 
FTA, and TSA. Its efforts helped lead to the issuance of proposed 
enhancements and additions to FRA's regulations for passenger train 
emergency systems (emergency systems NPRM), to amend both FRA's 
Passenger Equipment Safety Standards and Passenger Train Emergency 
Preparedness rules. See 71 FR 50276; August 24, 2006.
    Emergency communication is one of the main focuses of the emergency 
systems NPRM. Under the proposal, all existing passenger cars would be 
required to be equipped by 2012 with a public address system that 
provides a means for a crewmember to communicate to all train 
passengers in an emergency situation, and all new passenger cars would 
be required to be equipped with an intercom system that provides a 
means for passengers and crewmembers to communicate with each other in 
an emergency situation. An intercom system could be vital in enabling a 
passenger to quickly alert a crewmember of a security threat, and the 
crewmember in turn could contact the appropriate authorities to obtain 
emergency assistance and use the train's public address system to 
provide any necessary direction to passengers. The proposed rulemaking 
would also promote passenger and employee safety in an emergency 
situation--whether resulting from an accident or an intentional act--by 
enhancing requirements for emergency window exits in passenger cars and 
mandating that all passenger cars, including existing cars, have rescue 
windows for emergency responder access. FRA is in the process of 
preparing the final rule, which is expected to be issued some time in 
the near future.
    Moreover, a separate regulatory proposal is also in development 
within the Emergency Preparedness Task Force; this proposal focuses on 
passenger car emergency signage, emergency lighting, and low-location 
exit path marking. The proposal under development is based on American 
Public Transportation Association (APTA) standards for passenger safety 
and is intended to augment current Federal requirements.
    Complementing FRA and TSA efforts, Amtrak and commuter railroads 
have instituted their own security plans and conduct security training. 
FRA assisted Amtrak in the development of its security plan. 
Specifically, in coordination with Amtrak's Inspector General, FRA 
contracted with the RAND Corporation to conduct a systematic review and 
assessment of Amtrak's security posture, corporate strategic security 
planning, and programs focusing on the adequacy of preparedness for 
combating terrorist threats. FRA's security director is currently 
working with Amtrak to implement the recommendations of the RAND study. 
APTA is also leading commuter railroads in the development of voluntary 
industry standards for passenger rail safety and security.
    While TSA inspectors have lead authority and responsibility in 
conducting security inspections and reviews, the interagency MOU does 
permit the use of FRA inspectors to support TSA's security efforts. FRA 
inspectors have conducted basic security reviews of Amtrak and commuter 
railroad security both after the 2004 train bombings in Madrid and 
after the 2005 transit bombings in London. In both cases, FRA 
inspectors were deployed immediately after the bombings to assess the 
security posture of passenger railroad facilities based on a checklist 
of major security criteria. In the aftermath of the London bombings, 
FRA worked closely on these security reviews with TSA's rail security 
inspectors. TSA focused primarily on urban rapid transit lines, while 
FRA inspectors concentrated on commuter and intercity rail passenger 
operations; in some situations, inspectors from the two agencies worked 
jointly. FRA will continue to support TSA in responding to rail 
security threats.
    In partnership with FTA in the first few years after 9/11, FRA 
participated in security risk assessments on the ten largest commuter 
railroads and contributed the funding for security risk assessments on 
three of these railroads. In addition, FRA participated in FTA's ``best 
practices tool kit'' initiative, contributing our knowledge of commuter 
rail operations, infrastructure, and organization to ensure that the 
recommended security enhancement measures were sound and feasible in a 
railroad environment. FRA staff continue to work closely with many of 
the railroads that receive FTA grant funding, to plan and assist in the 
development and implementation of security simulations and drills. FRA 
also devotes staff with both railroad knowledge and facilitation skills 
to the FTA--and TSA-sponsored workshops across the country (called 
``Connecting Communities'') to bring together commuter railroads, 
emergency responders, and State and local government leaders so that 
they might better coordinate their security plans and emergency 
response efforts.

Research and Development
    FRA conducts and supports research, development, and demonstration 
projects related to rail safety and rail security through its Office of 
Research and Development, in cooperation with DHS. Both theoretical and 
applied research on a wide range of issues has led to impressive 
results and to tangible technology and process improvements.
    A recent example of the application of FRA's research efforts to 
both rail safety and security is the Passenger Rail Vehicle Emergency 
Evacuation Simulator, or ``Rollover Rig.'' This device, which began 
operation in 2006, can rotate a full-sized commuter rail car up to 180 
degrees to simulate passenger train derailment scenarios. The Rollover 
Rig is already enhancing the ability of researchers to test strategies 
for evacuating passenger rail cars and to evaluate the performance of 
emergency systems in the cars, such as emergency lighting, doors, and 
windows. In addition, first responders nationwide now have a unique 
training tool to practice effective passenger rail rescue techniques 
safely when a rail car is on its side. FRA developed the Rollover Rig 
at a cost of $450,000. New Jersey Transit Rail Operations donated the 
commuter rail car used by the Rollover Rig, and the Washington 
Metropolitan Area Transit Authority agreed to house, operate, and 
maintain the simulator at its emergency response training facility 
located in Landover, Maryland.
    We also continue to look for ways to improve tank car 
survivability, to reduce the likelihood that a tank car may be breached 
either by an accident or by an intentional act. PHMSA's and FRA's 
efforts to improve tank car survivability have a long and effective 
history. Working with the industry, all tank cars carrying hazardous 
materials now have top and bottom shelf couplers, and, as appropriate, 
tank cars are equipped with head shields, thermal protection, and skid 
protection for protruding bottom outlets. Tank cars carrying specific 
product groups, such as TIH and other particularly hazardous 
substances, are subject to additional requirements which became fully 
effective July 1, 2006, after a 10-year phase-in period.
    Prior to the August 2005 enactment of Section 9005 of the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users (SAFETEA-LU), 49 U.S.C. Sec. 20155, FRA had initiated tank 
car structural integrity research stemming from the circumstances of 
the 2002 derailment in Minot, North Dakota, involving the release of 
anhydrous ammonia from tank cars punctured during the derailment. 
Current research involves a three-step process to assess the effects of 
various types of train accidents (e.g., a derailment or collision) on a 
tank car. The first phase is development of a physics-based model to 
analyze the kinematics of rail cars in a derailment. The second phase 
is development of a valid dynamic structural analysis model; and the 
third phase is an assessment of the damage created by a puncture and 
entails the application of fracture mechanics testing and analysis 
methods. DOT's Volpe National Transportation Systems Center, part of 
the Research and Innovative Technology Administration (RITA), is doing 
the modeling work now, and FRA will dovetail this ongoing research with 
the requirements of Section 9005. FRA, in conjunction with PHMSA, hopes 
to develop new hazardous material tank car safety standards in 2008, 
and we are currently consulting with railroads, shippers, and car 
manufacturers and have solicited public comments through two public 
meetings to assist us in this effort. To further these efforts, FRA 
just signed a Memorandum of Cooperation with Dow Chemical Company, 
Union Pacific Railroad Company, and the Union Tank Car Company to 
participate in their Next Generation Rail Tank Car Project.
    Further, in September 2006, FRA awarded $200,000 to test sample 
tank car panels with various coatings to determine their ability to 
prevent penetration from small arms fire, as well as their ability to 
self-seal and, thereby, mitigate the severity of any incident. FRA 
developed the project in coordination with the AAR and DHS, which came 
up with the idea of applying to tank cars a protective coating like 
that used to enhance the armor protection of military vehicles in Iraq.
    FRA has other research and development projects underway related to 
rail security, which we would be happy to discuss with Subcommittee 
staff.

Conclusion
    FRA will continue to support DHS in carrying out its security 
responsibilities, and work with the rail industry to secure the 
Nation's freight and passenger railroad network. Together, DOT, DHS, 
and the rail industry are helping to ensure that security initiatives 
and programs are directed at potential threats to the Nation's railroad 
network and that rail employees and others responsible for its security 
are prepared to identify and address such threats.

    Ms. Jackson Lee. We look forward to working with you, and 
we thank you for your extensive testimony, which we will review 
and certainly make it part of the efforts that we wage.
    Let me acknowledge the presence of Congresswoman Brown-
Waite from Florida, and let me also offer this committee's 
express concerns and interests in the terrible tragedy that 
impacted your area with respect to the tornado, and certainly 
hope that the Department of Homeland Security is performing 
more than adequately for your needs. Thank you for your 
presence here this morning.
    I thank all the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    We started out this morning by saying that we wanted to put 
a mixture together, a formula, a recipe for safety and security 
for the American people, particularly security that is the 
jurisdiction of this committee. We want to do it quickly. In 
order to do it quickly, there are several elements, components 
of that formula, that recipe. It has to do with personnel. It 
has to do with training.
    Mr. Hawley, allow me to begin my questions on your 
testimony that mentioned in your testimony on January 18 that 
TSA employed a little less than 1,000 people for surface 
transportation issues. Would you be kind enough to break those 
numbers down for us? It was my understanding that there are 
only 100 surface transportation security inspectors. That 
leaves 900.
    Let me follow up by saying that you made that statement on 
January 18. I had hoped it would have been enough time to 
engage the president who released his budget yesterday and he 
only requests 288 positions for surface transportation 
security.
    Why did the president seemingly ignore a devastating need, 
and only request 288 positions, if you are currently employing 
1,000? And so as you answer, please break down what the present 
employees are doing, and why the president asked for only 288 
positions.
    Mr. Hawley. Our budget is broken down into different 
categories. In the surface transportation category, there are 
288 in the budget request, which comes down to 100 of the 
surface transportation inspectors and 188 of our staff, so that 
is 288. The 1,000 is a ballpark. We were in the conversation 
about aviation versus non-aviation. So in that was the overhead 
that we have in terms of information technology, support 
services, and intelligence, budget and finance, law--all of 
that.
    But if the specific question is: How many people do you 
have paid specifically for surface transportation? That number 
is 288.
    Ms. Jackson Lee. Well, I guess the specific question, and I 
am going to pass on to another question, but I am going to ask 
for that in writing. The specific question is: Why so few in 
the president's budget? Don't answer that at this point. I will 
seek that in writing.
    I do want to go on to a question dealing with training. 
Congressmen Lungren mentioned a commitment and a need for 
training, and our bill will hopefully focus on that. But I am 
wondering why training of rail and mass transit employees are 
voluntary, unreliable and many times inadequate. What are you 
doing before this rail bill comes out for that?
    And might you also indicate whether you have any 
established, and when I say ``established,'' defined minorities 
or women, people of color in any senior management positions 
for TSA. But would you focus on the training point of it, 
please?
    Mr. Hawley. Certainly. On the training, it is an eligible 
category from the funding that we send out through the various 
DHS grants, including the transit-specific grants. It is one of 
the top three, I think as Mr. Rosapep mentioned, that right 
after 9/11, the primary principles for security to address 
right away were training, public awareness, and first responder 
exercise-type stuff. So those three remain our top priority 
today, and Federal Transit Administration did quite a bit in 
the years from 2001 up to when TSA was created. It remains our 
number one priority.
    Having said that, I think taking to heart what some of the 
conversation here today was, what could we do better?
    Ms. Jackson Lee. Is training voluntary?
    Mr. Hawley. No. We have both rail and transit, so initially 
when an employee comes on board, they are required to have that 
training package. It varies by whether it is rail or transit, 
but I think the opportunity is, based on some of our 
assessments, as well as the self-assessments of the systems, 
that this is an area where we need to do more.
    Ms. Jackson Lee. Do you have any comment on the management 
team that you have, the diversity of women and minorities?
    Mr. Hawley. Yes. I would be happy to provide that to the 
committee, but we do in fact I believe have a diverse 
workforce, A, and leadership team, B. I can provide that for 
you, obviously, but it is both diverse in terms of male-female, 
as well as in race, gender and ethnicity. I thank you for 
bringing it up. It is an affirmative priority of our management 
team that diversity is itself a goal in our management team.
    Ms. Jackson Lee. My time has expired. I thank you very 
much.
    I yield now to the gentleman from California, the ranking 
member, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you, Madam Chairwoman.
    Mr. Hawley, I was struck by something you said at the very 
beginning of your testimony, and that is that the way you 
analyze threat or risk is not going to the sector first and 
looking at it in isolation, but rather looking across the 
board, and the tie-in of intelligence, intelligence analysis, 
and intelligence application, and the point that you made that 
the bad guys may start out looking at a vulnerability in 
aviation and then move that towards something in the area of 
mass transit.
    The reason I bring that up is, I know there has been some 
discussion on the Hill and some other places about whether or 
not the rail security grants ought not to come from DOT, rather 
than from your operation. I wonder if you could briefly talk 
about that, and talk about how that grant distribution goes at 
the resent time.
    Mr. Hawley. Sure. DOT's grant-giving is excellent, so I 
will just say that at the start. But in terms of security, it 
really does belong connected on the security side where we can 
take into account the security priorities based on intelligence 
and our experience. We clearly work very closely with DOT on 
the grant process, and they are a very valued partner.
    But as you mentioned, the intelligence side of it has led 
us to prioritize the underground tunnels as a particular 
primary priority in transit. And having integrated with the 
other DHS activities involving homeland security I think is a 
must.
    Mr. Lungren. Mr. Haley, I noticed in your testimony about 
proposed regulations. You made reference to the NPRM concerning 
the transportation of hazardous materials, and in particular 
the routes that the freight railroads choose to transport the 
toxic-by-inhalation materials, and that this proposed 
regulation would require companies to consider security when 
routing these materials, and to choose the safest and most 
secure route. That is a subject that has come up for much 
discussion before in this committee and I am sure other 
committees.
    Can you tell us exactly what the genesis of that was, what 
it proposes to do, and what are the requirements that the rail 
company must choose the most secure route, and how does that 
take into consideration, if it does at all, the economics of 
that? What I mean by that is, we have to have these materials 
delivered at a certain place, and if you re-route it somewhere, 
it is going to be in those other areas. Ultimately, it has to 
get at the final location.
    So how do all those things come into play as you put 
together this regulation, and as you see it to be implemented?
    Mr. Haley. Thank you for your question.
    The original PHMSA rule required that there be enroute 
security planning. There were comments from the private sector 
that they desired more specificity as to how that enroute 
security planning should take place. DOT and TSA went out with 
a public notice soliciting public comments in August of 2004.
    Based on those public comments, we developed the proposed 
rule, which will require that they gather traffic data, analyze 
the safety and security of the route that that traffic is 
moving; select an alternative route that it could be moved 
over, and analyze the safety and security risk associated with 
that alternative route; consider whatever mitigation measures 
they might want to apply to either route; and then select the 
route that poses the least safety and security risk.
    In doing so, we have set forth 27 factors that they are 
supposed to consider. The economic viability of the movement of 
the traffic, of course, is a key consideration.
    Mr. Lungren. Could I interrupt you to ask just one 
question, because my time is just about ready to expire. It 
just strikes me that the most dangerous position would be when 
it is sitting, as opposed to when it is moving; that is, 
sitting at a particular spot that may or may not be secure.
    Is that brought into consideration? That is, the 
timeliness, how quickly it can be moved, rather than where it 
may sit for a while as a ``sitting target''?
    Mr. Haley. Surely. The railroads currently attempt and have 
an economic interest to move the traffic as quickly as 
possible. Our proposal would not disrupt that. We want them to 
continue to move the traffic as quickly as possible because, as 
you said, sitting traffic poses a security risk.
    Mr. Lungren. Thank you. Thank you very much.
    Ms. Jackson Lee. Thank you very much.
    I will now recognize other members for questions they may 
wish to ask the witnesses. In accordance with our committee 
rules and practice, I will recognize members who were present 
at the start of the hearing, based upon seniority on the 
subcommittee, alternating between majority and minority. Those 
members coming in later will be recognized in the order of 
their arrival.
    I now recognize the chairman of the full committee, Mr. 
Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chairman.
    Mr. Hawley, some of us have real concern that as of this 
date we do not have a federal transit security plan. Can you 
tell us at what point we can have a document for review by 
Congress and others?
    Mr. Hawley. I expect shortly. It is the secretary's 
specific plan that we have prepared as required, and it is 
late. The only thing I would say that is a good part of that is 
that the process itself in putting it together, meaning that it 
required close, formal, substantive consultation with both our 
internal government partners, as well as external partners, 
that process has happened. So the security value is already now 
on the street. The paperwork has to catch up with it, and 
clearly it is our hope to get it up as soon as possible.
    Mr. Thompson. My point is, that sector-specific plan is 3 
years overdue.
    Mr. Hawley. It certainly is late, and I have nothing to say 
other than it shouldn't be late, and we will get it as soon as 
we get it.
    Mr. Thompson. And it was a presidential directive that it 
be developed. It is 3 years late. But also the 9/11 Act passed 
and directed TSA to develop a national strategy for transit 
security. My information is that the document produced is not a 
comprehensive document. Am I correct?
    Mr. Hawley. No. The overall strategy is, and it talks about 
the network that is transportation and how we go after it. The 
it backs up with the sector-specific plans where the work to 
that has been done, and the report, as you point out, is still 
forthcoming. But the overall work has been done on the security 
strategy.
    Mr. Thompson. Is it your testimony that that comprehensive 
transportation strategy exists?
    Mr. Hawley. Yes. It was published last year, or 2005, the 
NSTS.
    Mr. Thompson. Was that embargoed? Well, we will get to 
that. There is some correction.
    The other thing I want to talk a little bit about is the 
difference between air and rail. Is the system of security, in 
your mind, where it needs to be at this point for rail?
    Mr. Hawley. The level of system security for rail, I 
believe, is strong. It can clearly be stronger. It is our joint 
goal, I know, to do that. We have announced an agreement with 
the railroads themselves to immediately implement measures that 
specifically reduce the threat of TIH in urban areas, that is 
in place now.
    Mr. Thompson. If you had all the resources available to 
you, Mr. Hawley, to provide the security necessary for 
individuals who ride our rails, what would you do?
    Mr. Hawley. I think the strategy we have is a good one. I 
think options that would involve more money would be if we 
changed the model from a distributed state and local provides 
the resource, to a federal. But I am not sure that is going to 
be any better security. It is a different way of paying for it. 
I think more on the connectivity, more on the training. The 
primary work is at the intelligence coordination and law 
enforcement law, and that is really what we will continue to 
strengthen our work, and a public that is aware and 
participating. Those don't require a huge amount of money.
    Mr. Thompson. So do you want transit security to remain a 
state and local issue, and not a federal issue?
    Mr. Hawley. I think it is a little bit like a sporting 
event, where one person has the ball and the other supports.
    Mr. Thompson. Excuse me. Airline security is a federal 
issue. Rail security, at this point, is not.
    Mr. Hawley. I would say they are shared, that they are both 
shared, and the feds have--
    Mr. Thompson. Disproportionately shared by the feds in 
aviation--
    Mr. Hawley. In aviation--
    Mr. Thompson. --versus rail. So you would see that 
remaining just like that?
    Mr. Hawley. Yes. I think the business model is that so much 
has been done in transit and rail in the years prior to 9/11, 
particularly on safety, that when you go around to the transit 
agencies and see what security they have, that is very 
professional security. Our interest is what can we do to 
improve that.
    Mr. Thompson. But you agree we don't have a plan?
    Mr. Hawley. No, no, no. I outlined for you?
    Mr. Thompson. Sector-specific plan.
    Mr. Hawley. We have not published the sector-specific plan. 
I outlined at the beginning our priorities in TIH on the 
ground.
    Mr. Thompson. Well, when can we expect the published 
sector-specific plan?
    Mr. Hawley. I would have liked to have brought it today. It 
has been completed and is now in the clearance process, and the 
clearance process involves people getting on board with it. So 
I can't predict it because it is really--
    Mr. Thompson. Are these federals getting on board, states 
or locals?
    Mr. Hawley. No. We already have our stakeholders, the 
actual people we work with at the state and local level, at the 
federal level, and with the industry. We have them on board. 
But it is a broad government-wide participation and it is 
important that everybody be signed on throughout the 
government.
    Mr. Thompson. Can you get this committee, and I will back 
off after this, the present status of where it is, who has 
signed on, who has not, just for the committee's benefit?
    Mr. Hawley. Yes, sir.
    Mr. Thompson. Thank you.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
probing that.
    I would like to acknowledge the presence of Ms. Eleanor 
Holmes Norton, who has joined us. Thank you very much.
    I would now like to yield to the ranking member of the full 
committee, Mr. King, for 5 minutes.
    Mr. King. Thank you, Madam Chairwoman.
    Mr. Hawley, I would like to ask two questions, and then 
just allow you to answer. The first would be on the VIPR teams, 
if you could discuss what level they are at, how you look 
forward to enhancing their use in the future? And also, what is 
the level of cooperation between the VIPR teams and some of the 
local police and transit agencies? I know initially they were 
somewhat reluctant, at least in some instances, to work with 
the VIPR teams. That is the first question.
    The second one is on intelligence. I believe even though we 
have to do more, we are never going to have full security, and 
intelligence is absolutely essential. What is the real-time 
level of cooperation between Charlie Allen, FBI, the JTTFs, 
local police, and also the private sector? What role do they 
play as far as sharing of intelligence and perhaps even 
gathering intelligence?
    With that, I would yield back.
    Mr. Hawley. Taking the intelligence question first, it is 
very robust. We have a daily interaction on literally the same 
secure video conference with all the members of the 
intelligence community and law enforcement. TSA is on it. I am 
on it personally. So we do have real-time review of up-to-the-
minute intelligence and operations every day. And then 
immediately after that, I meet with the senior leadership team 
at TSA, including the general manager, as I mentioned, to 
specifically go over what comes out of the first call. And then 
their job is to connect to the operators in the private sector 
or whatever to share that information.
    So it is very robust. It is very real. It is 7 days a week. 
As needed, it can be 24 hours a day. That is on the intel.
    On the VIPR teams, this is a real asset for TSA and for our 
partners, particularly in the transit community where as 
invited by their local police jurisdiction, when they say they 
would like to have some surge support, we can provide teams of 
federal marshals, canine teams, inspectors, transportation 
security officers, to go provide unpredictable presence and 
surge capacity.
    We have had 45 of them in 2006, and we are going to move 
them up to more than one a week in 2007. They were at the Super 
Bowl. They were at the State of the Union, President Ford's 
funeral. Any major event, it is a fair bet to say we are going 
to have surge resources to support the local community.
    Mr. King. How much notice do you need to put them in play? 
For instance, if Chicago or San Francisco and New York asked 
for them, how soon would it take you to get them in place?
    Mr. Hawley. That is why we do the drill, is to figure out 
how we can engage quickly. The normal process would be 48 
hours, although in the case of last year and the incident in 
New York, we supported Amtrak in a matter of hours. In fact, 
Amtrak, we have already done seven of these teams this year in 
2007. So they are designed to be quick application of outside 
resources. So typically, we like 48 hours, but we can do it 
within a couple of hours.
    Mr. King. And how receptive are the local police and 
transit agencies? How have you found them?
    Mr. Hawley. I think you put it right. Initially, there was 
hesitation. Does this mean that there are going to be more feds 
encroaching on our jurisdiction? And then as people realized, 
``Hey, this is a surge support; this is something I can use,'' 
I think it is very warmly embraced, and it is a key part of our 
program.
    Mr. King. When for instance something happens overseas, 
like the London bombings of July 7, 2005, how quickly are you 
tied into that to see if there is going to be a copycat or 
replication here in the United States?
    Mr. Hawley. We are immediately. I would just refer to last 
week, the incidents that turned out to be coincidence here in 
the D.C. area, plus the well-publicized incidents in the Boston 
area. We were working that from literally before 6 in the 
morning, all the way through until it was determined the true 
nature in Boston. What we do is assess, is the thing in 
Washington related to what might happen in Boston? So Paul 
Lennon, in this case, the general manager, connects with other 
operators to say, ``We have had this, it is probably nothing, 
but just if something happens, be sure to let us know.''
    So the core of what we do at TSA is that operational 
readiness and information sharing.
    Mr. King. Do you have a vehicle where the private sector 
can play a positive role as far as providing intelligence? Or 
are they just receiving intelligence from you?
    Mr. Hawley. No. That is very much an important part. 
Certainly in the aviation arena, there is a lot there. But in 
transit, that is part of the requirement that we have on 
security directors, that requires suspicious incident reporting 
back to us so that we can pour it into the overall government 
suspicious incident analysis. We think that the people out in 
the field, including the public, are a tremendous resource in 
terms of capturing intelligence.
    Mr. King. I realize my time is expiring. I know that the 
cheers of yesterday have short echoes, but I want to commend 
you for the great job you did last August with the London 
blast. Thank you.
    I yield back.
    Ms. Jackson Lee. I thank the ranking member.
    I am pleased to yield 5 minutes to Mr. DeFazio of Oregon, 
for questions.
    Mr. DeFazio. I thank the chair.
    As chair of the Highways and Mass Transit Subcommittee, I 
am pleased with the coordination with this committee, and look 
forward to developing strategies to enhance our protections on 
surface transportation issues.
    Mr. Hawley, just a phrase or a sentence from the GAO, 
``However, federal and rail industry stakeholders have 
questioned the extent to which TSA directives were based on 
industry best practices.'' Would you like to comment on that?
    Mr. Hawley. Sure. That report that you quote from is one I 
read during my confirmation process, and I found to be really a 
guide for how we approach dealing with our stakeholders now 
going forward. So we have a more participative process now in 
terms of security directives, be they rail, transit, air or 
anything else, in making sure that what we are requiring is in 
fact the best way to operationally introduce a desired result.
    But also working in the rail industry this time was not 
through security directive. It was through an agreement that 
they made that will be followed up by regulatory action. So it 
is far more participative than perhaps in the past.
    Mr. DeFazio. And in terms of best practices, both 
internationally and nationally, are we at the point, I mean, 
granted, if you look at London, which I think is supposed to 
have some of the best, given the problems over half of a 
century, even they were vulnerable. But I mean, have we adopted 
as far as we can assess the best worldwide practices, both in 
transit, passenger rail, and freight rail?
    Mr. Hawley. We definitely share information, particularly 
in the technology area where in the U.K. they have had some 
millimeter wave transit pilots. That information has been 
useful. We share very closely with the U.K. Robert Jamison, who 
is my deputy administrator, and a former deputy at Transit, 
went to Mumbai. We have, as you know, representatives around 
the world whose job is to engage with the other governments. So 
there is robust sharing. I am not sure that anyone has solved 
the security of an open system. It has to be different layers.
    Mr. DeFazio. Again, you are talking about the millimeter 
wave, but I want to be sure. Can you assure me that you are 
assessing any and all potentially, you know, of the effective 
technology? And that we are not being constrained.
    I was disturbed to hear that your plan, as you were being 
questioned by the chairman, is being reviewed by individuals. 
That usually means the trolls who live under the bridge at OMB 
who are afraid that either it costs too much for industry or it 
costs too much for the government, and has budgetary 
implications. They don't care about the security. I want to be 
sure that you are not being constrained in those ways.
    Mr. Hawley. No. In the secretary's specific plan, it is not 
really a budget document. Frankly, I don't think that there is 
any huge problem. It just is slow. But as far as looking at 
technology, we have the science and technology group at the 
department who do have wide resources and connectivity to the 
scientific community around the world, and then we get the 
products of those as they get solid.
    Mr. DeFazio. So do you have a way? I mean, we have a center 
where we are doing aviation. Where are we doing technology for 
surface? The same place?
    Mr. Hawley. No. That is a very good idea, that I have heard 
suggested, and we are looking at, is having the same kind of 
technology clearinghouse in the transit arena. It is some of 
the feedback we have gotten from transit communities, and a 
value-add that we could perform, that could be improved on what 
we are doing now.
    Mr. DeFazio. You will have to give us a plan, or if you 
need money or something to do that, let us know, because I am 
very anxious to do that.
    Back to best practices, you talked about stakeholders. We 
have heard some complaints, particularly from labor, who are 
often the most informed people on the spot involved in the 
movement of people or freight, doing the maintenance, that they 
don't feel that they have been integrated very well into the 
best practices approach.
    Mr. Hawley. Well, I think it is a concern that we listen 
to. We have used our rail inspectors to go out and interview 
2,600 people, including the frontline employees, as well as 
some managers. The feedback that comes from that does indicate 
that more needs to be done on training. Madam Chairman, Robert 
Jamison passed me a note to say I misspoke on my answer about 
security training being required. Apparently, that is not the 
case specifically, so therein perhaps lies an opportunity.
    But the issue of not only the initial training, but the 
repetitiveness of it and the refreshing of it, I think is an 
open area and is something that we look forward to working with 
industry on and perhaps further regulation as needed.
    Mr. DeFazio. Okay, thank you.
    Thank you. My time has expired, Madam Chairman.
    Ms. Jackson Lee. I thank the gentleman.
    Just before yielding, allow me to yield myself 1 minute.
    Mr. Hawley, I am glad Mr. Jamison passed you a note, 
because I think we left on the point that it was voluntary, and 
I said ``inadequate.'' So I would like to allow you just to 
forthrightly say on the record again, security training is what 
as it relates to employees as relates to rail?
    Mr. Hawley. It is provided by the company and not required 
by the government.
    Ms. Jackson Lee. Okay.
    And is it ongoing? Is it a one-time training? I think you 
said that when they come in, they get some initial training.
    Mr. Hawley. I think it depends on the carrier. There are a 
number of training programs prepared originally by the Federal 
Transit Administration that TSA funds, and we make it available 
for localities to train. What they actually do with it is up to 
them under those?
    Ms. Jackson Lee. As you indicated, therein lies a serious 
opportunity. I just wanted to point out that that issue is 
something that we need to pay attention to.
    Mr. Hawley. Yes, absolutely.
    Ms. Jackson Lee. Thank you, Administrator.
    I now turn to the gentleman from Florida for 5 minutes, Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chairman. I appreciate it 
very much.
    I have a couple of questions for Mr. Hawley. To what do you 
attribute the absence of terrorist attacks on mass transit and 
public transportation systems in the United States since 9/11? 
And then also, to what extent have the TSA efforts played a 
role in preventing such attacks?
    Mr. Hawley. There have been attacks in the transit area 
that have been stopped. The FBI announced a major one last 
year. There are constant efforts that are undertaken by the 
intelligence, military and law enforcement communities. 
However, there is nothing that I can go out and say, ``this is 
the reason why a successful attack has not yet been done.''
    I think that an open system does make it possible that an 
attack will happen, and that is what we work all the time on. 
It is the vigilance. It is the preparedness. It is the teamwork 
among all the players that I think has provided an effective 
level of security. It is not a perfect level of security, but 
the difference between 9/11 and 2002 and 2003 and now 2007 is 
notable and I think very strong.
    Mr. Bilirakis. Thank you.
    What responsibility should states, local governments, and 
transit agencies themselves bear in their own protection?
    Mr. Hawley. I think it is a shared responsibility with the 
federal government, but clearly where these systems have been 
originated in the locality, and they have made arrangements and 
hired people and put in security requirements at that level, 
where it is strong, and my experience is that most of these 
systems are very professionally done, that it does not make 
sense for us to come in and try to superimpose on top of that, 
but rather to work with them to continue to strengthen the 
investment that is already made, so I think under the model we 
have now, where it is borne primarily by the state and local 
authority.
    Mr. Bilirakis. Very good.
    Next question, would you update us on the transit and rail 
inspection pilot program and share any relevant information 
that has been learned about the feasibility of screening 
passengers and luggage in rail environments?
    Mr. Hawley. Sure. I mentioned the VIPR teams that we have 
around the communities, and also with Amtrak. We have worked 
with Amtrak on doing some screening of passengers, as well as 
the luggage that they carry. There have been a number of 
pilots, one in the New York area, one in San Francisco area, 
actually on ferries, where we have screened passengers. The 
U.K. has done it as well.
    What we find is that it is feasible. Passengers are 
receptive to it, but that with 1,500 passengers a minute going 
into a major transit system, that there is no way to get to a 
statistically significant number. So just as a random thing, it 
works. Operationally, we can do it. It is a question of how far 
we would want to expand it.
    Mr. Bilirakis. Okay, last question. What role should 
individuals play in protecting themselves and ensuring their 
own safety when using public transportation?
    Mr. Hawley. I think it is a pivotal role, and as Mr. 
Rosapep mentioned in his statement, it is one of the three top 
things, is the public awareness, see something, say something. 
It is how transit attacks have been stopped in other countries, 
by passengers being alert. It is I think really the strongest 
thing we have going for us, is with all those 11 million people 
traveling every day, alert and willing to say something, and 
know who to say it to, and have a person who gets told that 
know what to do about it, that is very powerful security.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I yield back 
the balance of my time. I look forward to working with you.
    Ms. Jackson Lee. I thank the gentleman for yielding his 
time and thank him for his questions.
    It is my pleasure now to yield to the distinguished 
gentlelady from New York, Ms. Clarke, who I know has a great 
investment in the success of this committee--we look forward to 
working with you--for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair.
    And to our distinguished secretary, thank you for being 
here to give us some clue as to where we are right now.
    I am a bit disturbed, quite frankly, by the description of 
the level of federal guidance and support that is being given 
to the state and local jurisdictions. My point of reference, of 
course, comes from New York City, where I know there has been a 
tremendous burden placed on our day-to-day operating systems, 
just the basic securities of running such a huge mass transit 
system, and having to shift resources on a regular basis in 
order to address any events that take place.
    So if there is a bombing in Madrid, we automatically go to 
Code Orange, or whatever the code is, and that is costly to us. 
It is a cost that the city bears itself, without the federal 
support or the state support to continue to do this on a 
regular basis.
    So I wanted to just ask a couple of questions. One, what do 
you see as the role or the vision of financial support to 
jurisdictions similar to New York around the nation, that have 
to be constantly in a state of readiness from a personnel 
perspective, from an equipment perspective, or technological 
perspective? We have become quite sophisticated at our own 
costs in New York City, and that is a real concern when we are 
looking at a federal standard.
    And then secondly, you mentioned the ``See Something, Say 
Something.'' It is a great novel idea. You did also point to 
what is very important in that equation, and that is you know 
who to say something to. And part of the challenge, quite 
frankly, has been that we are having a hard time finding out 
who to say something to. There have been cutbacks in personnel 
with respect to our transit workers. They are not even trained 
properly to be able to relay information in a real-time sense. 
There are some logistical challenges that I think we should be 
beyond at this stage.
    I would like to know, with respect to your strategic 
planning, how are you being informed and how are we going to 
provide the appropriate supports for the infrastructure to be 
safe in a mass transit environment?
    And then just secondly, the Port Authority of New York and 
New Jersey released a report recently that the PATH tunnels 
that run under the Hudson River are more susceptible to attack 
than previously thought. What steps are being taken to assure 
that the security of tunnels in New York and elsewhere are 
being really taken into account? And how much money do you 
estimate it will cost to ensure that these tunnels are secure? 
And who should pay for security upgrades?
    I think there are some real challenges right now with 
respect to state and local jurisdictions, and bearing the 
burden of really what is a national challenge around security.
    Thank you, Madam Chair.
    Mr. Hawley. Taking the last one first, about the 
underground tunnels. We are in very close coordination with the 
Port Authority of New York and New Jersey, as well as 
Connecticut, I might add. But on that specific issue, the 
Federal Transit Security grants have as their number one 
priority underground and underwater tunnels in high-density 
populated areas. That was the case for fiscal year 2006 money. 
It is the case for fiscal year 2007, and I expect it will be 
for fiscal year 2008.
    So in terms of the report that was recently released, it is 
clearly something that we are well aware of, and working with 
the community there on, and have made it the number one 
priority for our federal money.
    As to your first question on the model that we have, the 
model says that the local jurisdiction has the operating 
responsibility to pay its officers to do the operations. 
Federal support comes in areas like the underground tunnel 
issue, as well as in equipment and technology and things like 
that. So it tends to be a breakdown on that basis.
    Ms. Clarke. Madam Chair, just one final question. The issue 
of training, who does that fall under, because that is a 
personnel issue?
    Mr. Hawley. Sure. I think it is maybe the theme of this 
morning's session. What we have done is gotten very good 
security training, a lot of it produced by Federal Transit, and 
we have put it high on the agenda. Number one, we already 
talked about, public awareness, and training and emergency 
response. It is one of the top three. And then we have sent the 
money with the priority throughout the system.
    The question that is raised here, and I think is a valid 
one, is the degree to which that is hitting the people on the 
street, and then repeated hitting the people on the street. We 
have found in our personal interviews with people in the field 
that that whole issue of recurrent training and the variety of 
the training is a part we all need to focus on. The self-
assessments, actually, that they did themselves, rated that as 
one of the highest needs that they need to get on.
    Ms. Jackson Lee. Thank you, Congresswoman Clarke.
    I now yield to Congresswoman Blackburn from Tennessee, for 
5 minutes, for questions.
    Mrs. Blackburn. Thank you, Madam Chairman. I appreciate the 
time, and I appreciate our witnesses taking the time to be here 
with us this morning, and provide some clarification to 
questions that we are getting from our constituents.
    Mr. Hawley, in the GAO Passenger Rail Security Report, 
there is a statement. I am going to ask you about this and get 
a response from you, but I have a little more I want to say 
before you do talk about it.
    It says that the TSA likes a strategy with goals and 
objectives for securing the overall transportation sector in 
each mode of transportation, including passenger rail. Mr. 
Thompson talked just a little bit about that. This is the type 
of thing we do hear from our local electeds on, and we also 
hear from our constituents on. And then statements like that, 
or discoveries, if you will, or pronouncements lead reporters, 
here is New Channel 5 out of Nashville, where they are looking 
at rail cargo and anhydrous ammonias, and chorines, and 
different components that are in rail yards unattended for 
hours at a time.
    And then here is the USA Today article where you are 
responding to some of the allegations about the toxic cargo, 
and are quoted in this one from January 21. As our constituents 
go through the checkpoints at airports and cannot take a 5-
ounce bottle of lotion, but they can take a 3-ounce bottle as 
long as it is in a baggie, and they see that type of subjective 
scrutiny. And then they hear reports of this nature, and then 
they talk to someone that works with some type of logistics 
company, of which we have many in Tennessee, or they are 
talking with someone who works with a passenger rail service, 
and there is basically not the training, not the interface, not 
the attention to the safety.
    It does cause questions. And so what I have heard you say, 
and I want you to clarify a little on this, is that you all 
have put a strategy on paper. What you are lacking is an 
implementation plan that reaches cross-agency as to how you 
will interface with your employee training, with your public 
awareness, with some of your protocols and disciplines.
    If you will respond?
    Mr. Hawley. Sure. On the cross-interface, we mentioned in 
our testimony that we have agreements, MOUs, with both Federal 
Transit and Federal Rail Administration to have that in writing 
on paper. The issue you mentioned about chlorine and anhydrous 
ammonia, we have a rulemaking that Secretary Chertoff announced 
on December 21 that will go through the process and take a 
while to implement.
    But we also announced that the center of the bull's eye on 
that one is when there is anhydrous ammonia or chlorine or any 
of those other TIH cars sitting unattended, including in 
Roseville, California or anywhere, that that is measured by TSA 
and the railroads, and that they have agreed, and subject to 
our inspection, to reduce that by 25 percent in a year, and 
then we will go after continued reductions.
    So what we have done is gone after immediate effect to 
reduce risk, right at the most vulnerable part, that goes into 
effect right away and doesn't wait around for a year or a year-
and-a-half or 2 years for a rule to go through the whole 
process.
    Mrs. Blackburn. If I may, sir, on that, with reducing 25 
percent in a year, are you going to require some type of 
labeling on those tankers so that it is identified as toxic?
    Mr. Hawley. Yes. I will defer to Mr. Haley, but they are 
identified visibly on the cars.
    Mrs. Blackburn. I would offer that possibly they are a 
little difficult to detect sometimes.
    Mr. Haley, do you want to respond?
    Mr. Haley. Yes. Hazardous material cars are required to be 
placarded, which indicates the contents of the cars so that 
emergency responders can handle any problems that may arise.
    Mrs. Blackburn. Okay. Mr. Rosapep, coming to you for just a 
minute, as we talk about the training, and there is a lot of 
emphasis on the security training and the employee 
accountability, if you will, and making certain that people 
know the expectations of them as they go about doing their job. 
Are you developing a certification program so that your 
employees will have different levels of training and awareness 
and ability?
    I think it is important that individuals who are citizens, 
who are using mass transit, know who to contact. I think it is 
also important for our local electeds to know who to contact 
and to know what their level of capability is.
    Mr. Rosapep. We don't have a formal certification program 
in place as yet. Right now, we are actually conducting a 
training assessment of the top 30 transit agencies and 20 
smaller ones to get a better feel for what their real needs are 
among their employees.
    To your point, we do know that there is probably a desire 
to redirect some of our courses to specific job 
classifications. That might help in the training process. But 
we will have a much better idea on the overall training needs 
later this spring, from that standpoint.
    On the safety side of things, through the Transportation 
Safety Institute, FTA over the years, we do have a safety 
certification program for some employees, who, if they go 
through a particular curriculum and take a certain number of 
courses over a set period of time, then they are certified from 
a safety standpoint. Ultimately, that might be something to 
look at on the security side as well. But it is clear to try to 
tailor those courses to your point, to the jobs that people are 
actually doing.
    Ms. Jackson Lee. The light is still on. Thank you for 
yielding back.
    I now yield to Congresswoman Brown-Waite for 5 minutes for 
questions.
    Ms. Brown-Waite. Thank you very much, Madam Chair.
    I recently received a letter from a state senator who is 
chair of the Florida Domestic Security Committee. In this 
letter, she indicated that TSA has been working on the TWIC 
card to do background checks on potential airport and port 
security workers. However, the TSA is no longer working to 
ensure Florida's system is compatible with TSA's.
    Obviously, I am very concerned about this, and would like 
to hear what steps you are taking to integrate existing state 
systems with the new federal requirements, and specifically 
what you are doing in Florida.
    Let me read you one paragraph from her letter: ``After 
years of partnership with TSA on this project, it was shocking 
to receive the treatment which was afforded by TSA over the 
last few months. The lack of responsiveness across staff 
levels, and even the perfunctory response by Secretary Chertoff 
to a letter written by Governor Bush, to work with the state to 
assure positive continuation of the partnership was baffling.''
    Mr. Hawley, I would like to hear your response to this.
    Mr. Hawley. Well, first I will go back and see what all 
that refers to in terms of the interaction. But the issue on 
TWIC is we did partner with the state of Florida in the early 
days of TWIC as it was coming along. Florida elected to go 
forward and make that program in Florida, knowing that the 
federal standard had not been set.
    The issue is interoperability of credentials, so that the 
idea is you can use it in Florida or any other place in the 
United States. To do that requires, obviously, the standards 
that are interoperable, so that the ones that, as I understand 
it, that the Florida ports went to are ones that, out of their 
good interest to get security upgraded right away, they went 
with a standard and it has not turned out to be, to my 
understanding, what the overall standard will be going forward.
    So I will be happy to go and sort out what it is. I think 
what Secretary Chertoff was referring to was we have had a very 
positive partnership with them, and we all knew at the time 
that there would be a choice that they made, but we will 
certainly work with them going forward to achieve the level of 
security and interoperability we want.
    Ms. Brown-Waite. Sir, I do believe that they worked in 
conjunction with you all to come up with this system. It is 
like they worked with you, and didn't hear any objections, and 
now they are kind of out there left on a limb, and there is no 
longer the cooperation level there with TSA.
    Mr. Hawley. Well, we did cooperate with them building it, 
but it is the standard that was not set. I remember, because I 
had one of the conversations, which was what I said to one 
individual at least was, ``If you have to go ahead on your own, 
you have to do what you have to do, but we are not ready yet on 
the standard and will not be immediately ready.'' So that is 
the risk you take of going forward with one version versus 
waiting for the standard. And I don't know all that happened 
after that, but I will go find out.
    Ms. Brown-Waite. I would appreciate that.
    Madam Chairman, one other question. Recently on a major 
news broadcast show, they had information about the fact that 
everyone has to go through the screening at the airports, but 
the issue is the employees coming in the back door with an 
identification card that may or may not be current, and without 
any real daily screening.
    Now, if the TSA people have to go through the screening and 
the pilots have to go through the screening, and our 
constituents have to go through the screening, I can just tell 
you that last year, Representative Lowey and I agreed that this 
should not continue. We are still here. There is no better 
security at the back door, and I hear passengers grumbling in 
line who saw this program.
    How long is it going to take? And is it going to take a 
tragedy to get you all to move a little faster on that?
    Mr. Hawley. Well, we moved in the past year on physical 
screening of employees. We have as part of the FSD's program, 
federal security director at each airport, they have their 
resources from TSOs to go around to areas all over the airport 
and do random, unpredictable screening. We do not at this point 
screen everybody every time. That is an issue of process and 
resources.
    From a security point of view, we like the ability to do 
the random everywhere anytime, so it covers the entire airport, 
versus just the one time when you catch them walking through 
the door.
    The other piece of it is, the neighborhood watch nature of 
airports, where every employee there is responsible for 
challenging anybody without a badge, and reporting incidents. 
And there is a very high degree of awareness throughout that 
community. So it is a policy issue of whether to require TSA or 
airports to physically screen everybody as they walk in the 
door, but that is not the case today.
    However, the issue on insider threat is one we take 
extremely seriously. There are tremendous background checks, 
recurring watch-list checks every night on that whole 
population. We have 50,000 people, say, at a large airport, and 
it is a lot of real estate.
    Ms. Brown-Waite. Madam Chair, I think it would be very 
revealing to this committee to have a list of the airports that 
this random screening has been done at. I think it would be 
very revealing, and the airports and the frequency which this 
is done. It is a concern to every one of our traveling members 
of the traveling public. I want to make sure we are not sitting 
here next year or the year after and hearing the same story of 
well, random is enough, when the department screens its own 
personnel, the TSA workers who are there. Pilots get screened.
    Ms. Jackson Lee. Let me, if I might, as I conclude this 
portion of the hearing, thank the gentlelady from Florida for 
her work, and the work of Congresswoman Lowey. As I started out 
this morning, you can be assured this is going to be an 
enormously active committee. Therefore, you are timely in your 
inquiry. We are sort of overlapping. Administrator Hawley is 
responsible for rail and aviation, but we will have a hearing 
on that very question. So I am giving you pre-notice to 
determine where we stand on that vital issue. So I thank you.
    I am prepared now to conclude this panel, with the thanks 
of all of the witnesses, Administrator Hawley, Mr. Rosapep and 
Mr. Haley. We will submit, and I would open the opportunity for 
members to submit questions for the record.
    Mr. Hawley, as you put your papers together, one of the 
questions will be that we will pursue with you is the 
representation of required security checks for railroad 
employees. Of course, we welcome that, but it is represented 
that DHS is the cause of the firing of a number of employees in 
Chicago. It happened to be, of course, in this instance, from a 
minority population. We will pursue that. It is like that we 
will have a hearing on that. You might want to begin preparing 
your answers on that question, because we want consistency and 
we want facts and truth.
    So with that, I want to thank the witnesses for their 
presence and their testimony, and indicate that we are now 
prepared for the second panel.
    I would welcome the second panel witnesses.
    The second panel contains only one witness, Ms. Cathleen 
Berrick, a director with the Homeland Security and Justice 
Division with the Government Accountability Office.
    I thank the witnesses, and I welcome Ms. Berrick to the 
table.
    I will indicate, without objection, the witness's full 
statement will be inserted in the record, as you come and 
prepare. I will give you just a moment.
    I now ask the witness to summarize her statement for 5 
minutes, and you are able now to present your testimony. 
Welcome to our committee.

 STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR, HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you, Chairwoman Jackson Lee and members 
of the committee, for the opportunity to discuss the security 
of passenger rail.
    In addition to GAO's passenger rail security work, we have 
also, or will soon initiate reviews of additional surface modes 
of transportation for this committee, including freight rail, 
commercial vehicles, and highway infrastructure. We expect a 
report of the results of that work later this year.
    Regarding passenger rail, my testimony today focuses on 
actions the federal government should take in the near term to 
strengthen security, and security efforts implemented by the 
federal government and domestic and foreign rail operators.
    We have reported that DHS needs to complete, update and 
more fully coordinate its risk assessment efforts in order to 
ensure that resource needs for securing passenger rail are 
appropriately identified and focused. We found that DHS, in 
conjunction with its grantmaking authority, TSA and DOT have 
all completed numerous risk assessments on passenger rail 
systems around the country. We also found that DHS had begun to 
develop an overall framework for consistently analyzing risks 
within and across sectors.
    However, we found that these assessments were not yet 
completed or fully coordinated. Until they are, it may be 
difficult to compare risks within passenger rail and across all 
transportation modes so that appropriate resource allocation 
decisions can be made.
    We also reported that DHS lacks a clear strategy for 
securing passenger rail and other surface modes. As was 
mentioned this morning, DHS has been delayed in issuing its 
transportation sector-specific plan and supporting plans, which 
are to identify TSA strategy for securing all transportation 
modes.
    Without a plan, it is difficult for rail and other 
transportation operators to clearly understand the federal 
government's security role, as well as expectations for them. A 
lack of a plan can also make it difficult for DHS to be held 
accountable for implementing needed security strategies and 
efforts.
    Our ongoing work on commercial vehicle security has found 
that operators are seeking information from the federal 
government on their role and strategy with respect to security. 
Our work has also shown that despite several security efforts 
under way in this area, DHS is in the early stages of defining 
its security role regarding commercial vehicles.
    After the 9/11 attacks, FRA and FTA implemented and still 
support a number of programs to strengthen rail security, 
including providing operator training and technical assistance. 
TSA also issued security directives and piloted explosive-
detection technology, and recently issued a proposed rail 
security rule, and has implemented other security programs in 
partnership with FRA and FTA.
    Domestic and foreign rail operators have also taken a range 
of actions to secure their systems. We also observed security 
practices among certain foreign rail systems or their 
governments that are not currently used or used to the same 
degree domestically. These practices include the random 
screening of passengers and their bags, and the utilization of 
covert testing to help keep employees alert to security 
threats.
    We also found that certain foreign governments maintain a 
centralized clearinghouse of rail security technologies, which 
is not currently done, although is planned in the United 
States.
    Another key component of surface transportation security is 
ensuring strong stakeholder partnerships, given that security 
is a shared responsibility between the federal government, 
state and local governments and the private sector. To this 
end, DHS and DOT signed an MOU intended to improve coordination 
on security and safety matters, and subsequently completed 
several related annexes. DHS is also strengthening partnerships 
with private sector stakeholders through its security 
assessments and other efforts.
    As TSA begins to place more focus on the security of other 
surface transportation modes, it will be equally important that 
such a framework be developed and implemented to supports its 
efforts.
    In summary, we are encouraged by the increased federal 
focus on the security of surface transportation systems. 
However, in moving forward, a clear strategy based on risk and 
strong coordination will be needed to help ensure the actions 
and investments designed to enhance security are appropriately 
focused.
    Madam Chairwoman, this concludes my opening statement. I 
would be happy to respond to any questions.
    [The statement of Ms. Berrick follows:] \1\
---------------------------------------------------------------------------
    \1\ See GAO, PASSENGER RAIL SECURITY Federal Strategy and Enhanced 
Coordination Needed to Prioritize and Guid Security Efforts, GAO-07-
442T, Tuesday, February 6, 2007, at www.gao.gov/cgi-bin/getrpt?GAO-07-
442T
---------------------------------------------------------------------------
    Ms. Jackson Lee. I thank the witness very much for her time 
and for yielding time back. We thank you so very much, and we 
thank you also for your patience.
    Before I recognize myself for questioning, without 
objection, I want to place into the record Ms. Berrick's 
September 2005 GAO report, and previous January 18, 2007, 
testimony before the U.S. Senate Committee on Commerce, Science 
and Transportation.
    I will now recognize myself for questions.
    This is a tough challenge that we have. This hearing is set 
not to blame, but frankly to get answers and to ensure that as 
we write rail security legislation, we focus on the unique 
niche and important responsibility of the Department of 
Homeland Security.
    So I would appreciate it if you would take all gloves off 
and confront this issue enormously seriously. One of the 
difficulties we have here in the United States Congress, I 
might imagine it is in the executive, as GAO has seen, is a 
jurisdictional question. But it is clear that the security 
issue, security for this nation, is vested in the Department of 
Homeland Security, and frankly, in the Transportation Security 
Administration.
    I almost paint the picture that everyone wants a hand in 
the matter, until the crisis arises. I would venture to say 
that if we did not continue to receive the blessings that we 
have, as it relates to attack on our soil, if one were to 
occur, I would bet all bets that the pointing would go toward 
the Department of Homeland Security and TSA, in this instance, 
as it relates to rail security.
    So we have a real challenge to step up to the bar. My 
questions relate to stepping up to the bar. You mentioned a 
number of points. I start with the DHS assessments not 
completed, or possibly not coordinated with other agencies, 
which I think is truly key. You heard testimony about the lack 
of security training, at least required, that we seem to have 
with rail employees, which I would include mass transit 
employees.
    I am giving you a series of issues. One, the coordination, 
whether or not we are consulting with law enforcement agencies 
on the federal level as to the assessment, say, an overview of 
security issues across the nation. Are we engaging in regional 
FBI offices? Are we talking to the New York FBI office, for 
example? Is there that kind of coordination?
    And then, of course, the training question. As we look at 
the way to focus legislation to give Administrator Hawley more, 
if you will, tools, is a request of 288 personnel seemingly 
adequate, with only 1,000 and a small number of surface 
transportation security officers?
    And then, a ticklish point, but I believe a very important 
one. There is no doubt that controlling the purse-strings gives 
you a little oomph. Therefore, if security is defined as the 
responsibility of DHS and TSA, would it not be appropriate for 
transportation security grants, determined by risk, funding to 
be issued out of TSA or the Department of Homeland Security?
    With that, I will yield to you for your responses.
    Ms. Berrick. Thank you, Madam Chairwoman.
    Your first point regarding risk assessments, GAO did look 
at the Department of Transportation's and Department of 
Homeland Security's efforts to conduct risk assessments. At the 
time, we had done that work, TSA was in the early stages of 
doing risk assessments. This was about a year ago. The 
Department of Transportation had been doing them since 9/11. 
And also at the Department of Homeland Security level, they 
were doing risk assessments as a part of their grantmaking 
authority.
    We had observed during that work that there was a lack of 
coordination between the three parties. These were all 
promising efforts, but they weren't coordinated and they also 
weren't completed. Since that time, there has been more 
coordination. They have completed more assessments, but they 
are still not at the point where they need to be. Until that 
happens, it is very difficult for TSA to develop a strategy on 
what the security should be for passenger rail or for any mode 
of transportation until they are in a position to have a 
comprehensive view of the risks facing that sector, and then 
comparing that to aviation and other modes of transportation.
    Ms. Jackson Lee. So they need to be working with FTA and 
FRA?
    Ms. Berrick. Exactly, and also TSA and the Office of Grants 
and Training within DHS needs to be working together. We made 
recommendations along those lines.
    Regarding coordination, when we had done our work, we 
identified that coordination was a problem between DHS and the 
rail operators. TSA really started getting involved in 
passenger rail security after the Madrid bombings. Once they 
did, they issued security directives within a matter of months. 
It was mentioned earlier that these directives were not fully 
coordinated. So coordination was a problem.
    Operators also weren't clear what TSA's role was versus FRA 
and FTA and DOT. We had made a recommendation that DOT and DHS 
establish a memorandum of understanding to clearly delineate 
what their roles and responsibilities are. They did implement 
that MOU and establish some annexes, which we think is a great 
step in the right direction to coordinate better with 
stakeholders.
    Also, TSA, since we did our work, is reaching out more with 
rail operators, as a part of their security assessments. They 
are building a framework there to work closely with 
stakeholders. I think where they are right now is in the 
implementation. They have this framework in place with the MOU. 
They have reached out initially to rail operators. Now, it is 
about implementation and moving forward. Whatever strategies 
they put forth, it is important that they be coordinated with 
these stakeholders and they leverage these relationships that 
they have developed.
    Regarding training, you had mentioned training. Right now, 
one of the points we have made in our work is that TSA, FRA and 
FTA have a lot of security efforts under way. Part of what is 
under way is the Department of Homeland Security is providing 
grants to rail operators for training. The problem that we see 
is that it is not clear how all of these different efforts tie 
together, and what the ultimate end-state is for security for 
passenger rail. For example, training, everybody agrees that 
training is important, but what type of training, who should be 
trained, when should they be trained, should it be one-time, 
should it be recurrent, how will TSA measure whether or not 
operators are absorbing subject matter that they want them to 
absorb.
    That is why training needs to be a part of a bigger plan. 
How do all these different components fit together, and what 
are the ultimate goals for training? Mr. Hawley mentioned that 
the work had been done to support that plan. We just haven't 
seen the plan yet, and what that is.
    Regarding your question about 288 personnel being devoted 
to surface transportation security, again, I go back to the 
risk assessments. I think until TSA does an analysis, until the 
put it forth and it can be reviewed, it is difficult to answer 
what is the appropriate number of resources. As of today, I 
haven't seen that analysis. I know they are working on this 
transportation sector-specific plan. Once they lay out what 
their strategy is, I think everybody will be in a better 
position to assess whether or not that is an appropriate number 
of people.
    Ms. Jackson Lee. Let me think. I had another question, but 
I am going to yield to the distinguished gentleman from 
Colorado, and welcome him to the committee. Mr. Perlmutter? He 
is from Colorado, not New York.
    Mr. Perlmutter. Thanks, Madam Chair.
    I just had a couple of questions, and just a couple of 
comments. My first question is, in your studies and your 
inspection of this, how have the more successful agencies 
within the TSA worked with the rail and transit sectors to 
develop the best practices? That would be my first question.
    And then my second is, when you were doing your assessment 
of all of this, it seems to me that the Denver area, which has 
a lot of rail traffic, was ignored. I mean, I don't know 
whether you found anything or you wondered by the metropolitan 
area of Denver was not part of the study group, or whatever, 
but those are my questions.
    With that, I will yield to the speaker.
    Ms. Berrick. Thank you.
    Regarding coordination and best practices for TSA, what we 
found is, first and foremost, that TSA is developing a strategy 
related to passenger rail security, or before they roll out any 
security directives or programs, it is really paramount that 
that coordination happen before they make those decisions. Most 
of the problems in the past have stemmed from the fact that 
that coordination wasn't always there, and there have been 
reasons for that turnover within TSA.
    And then also TSA was reacting quickly as a result of the 
Madrid bombings. They wanted to get security directives out 
quickly, so they were trying to balance that with coordinating 
with stakeholders. So I think the first best practice is really 
reaching out before decisions are made and working with 
stakeholders.
    I think a second good practice is, before laying out 
regulations and standards, going out and visiting the rail 
operators, seeing how they do business, see what they have in 
place already, and get their input regarding what assistance do 
they need and what direction do they need. TSA has since done a 
lot more of that in the past year. So I think those are two 
important practices.
    By the way, we did visit some foreign countries as a part 
of our work, in Europe and Asia. And stakeholder partnerships 
was always a very big part of what they did. We also identified 
some unique things that they were doing in those countries that 
potentially could be considered in the United States, that we 
reported on.
    In terms of Denver, as a part of the study, we visited 
about 35 major rail operators around the country. I am not 
certain whether or not Denver was a part of that or not. I can 
check and then let you know after this hearing. I also wanted 
to mention that this committee has asked GAO to do follow-on 
work on passenger rail security. So if there are certain issues 
or locations that you think we should be focused on, we would 
be certainly happy to talk to you and get your input. I can get 
back with you on our last study and whether or not Denver was 
one of the cities we visited.
    Mr. Perlmutter. One last question, Madam Chair.
    Are you getting any resistance from any of the stakeholders 
as to efforts to beef up security, either on the freight side 
or the passenger side?
    Ms. Berrick. Not at all. In fact, most of them have said, 
``We know that this is our responsibility as well.'' They went 
and they acted after 9/11, before anybody came to them from the 
federal government. They knew that they had to do this. They 
knew they were going to have to pay for a lot of this. So no, 
it wasn't.
    We often asked the question, well, what do you want from 
the federal government? You are doing a lot of these things 
already. They would always say, well, ``We want to know what 
the federal government's role is; we want to know what their 
strategy is; we want to know if they are going to issue 
security standards a year from now that is going to conflict 
with what I am doing.''
    They also said that they wanted information on technologies 
that would be useful to them, because they had a lot of 
technology providers approaching them. They wanted to know what 
were the best technologies to pursue. So we actually saw that 
they were very willing to work with the government, and also 
willing to shoulder a lot of the burden for securing their 
systems.
    Mr. Perlmutter. Thank you, Madam Chair.
    Ms. Jackson Lee. Let me make sure that the record is clear. 
There are a lot of New Yorkers on this particular subcommittee, 
and I am delighted that the distinguished gentleman represented 
the very wonderful state of Colorado. We thank him for his 
presence and his very pointed and important questions.
    I now yield myself 5 minutes for a second round of 
questions.
    As I have looked, it doesn't appear that you have been to 
the Denver area, the suburbs. I would encourage the 
distinguished gentleman to encourage your visit in that area. 
Likewise, it appears that you were in Dallas. I am going to 
ask, sort of probing your mind, if you remember any distinctive 
aspects of that review in that city, and if you remember 
anything striking in terms of security that you are able to 
share in your foreign visit. And then I would like to also make 
mention of Houston, Texas, from the freight and rail 
perspective, that we will probably encourage a visit there, 
because it is a system that weaves in and out of the 
residential area.
    If I might, those are questions that you might answer. It 
might have to be in writing, but let me pursue them, and you 
might be able to provide us with an answer.
    Again, I want to pursue the president's budget of 288, and 
this coordination issue. Would you give the committee your 
sense of how urgent and how fast we should be moving with this 
coordination? I would also put on the record that I would be 
interested in securing the MOU. We might have it in our records 
files, but I want to make sure this committee has a copy of 
that. I am not sure if the GAO has it. We will make an official 
request on that.
    So if you could comment on how fast, and I have given you 
some earlier questions, but how fast we need to move. And then 
let's go back to this question of training, the urgency or the 
importance of a consistent training program. Now, I know this 
smacks up against the sort of dichotomy between more local 
efforts than we have in aviation, where the aviation is 
dominated by federal. It seems that there is some balance in 
the rail system. But the training is what we hear from rail 
employees, whether they be mass transit or otherwise, that they 
need not only training, but ongoing.
    And I think the way Administrator Hawley represented it to 
us, was that it is through transportation security grants, that 
you can use it for that or not. Why don't you comment on how 
vital training is, and maybe the need to make it required. And 
then if you would indicate to us whether or not the effective 
training is a key to what we need to be doing, and whether or 
not DHS needs to have full control over the issuance of the 
transportation security grants, which would include issuing the 
check.
    Ms. Berrick. Thank you.
    Regarding your question about how fast should coordination 
happen, I think it should happen immediately. The framework is 
put in place now. It is about implementation. But I think until 
TSA can really move forward, again I go back to the plan. They 
have to communicate to the stakeholders what their strategy is, 
because they can do a lot of coordinating, but if it is not 
clear what the end-state is for security, it is difficult to 
really move forward.
    Again, rail operators are doing a lot on their own, but 
they are also leery of doing too much in anticipation of 
federal requirements that may be issued that may conflict with 
what they are doing. So I think they need to move quickly. I 
think the first step, they have done a lot of these risk 
assessment efforts. I think they can improve upon that, have 
that built into the strategy, communicate it, and then 
implement it. And then it would also provide for congressional 
oversight, too, because there is a roadmap from which you can 
assess DHS's progress.
    Regarding training, every rail operator that we spoke with, 
domestically and overseas, all said that training is probably 
the most important aspect of security that they felt they had 
within their reach. In addition to grants that DHS provides for 
training, rail operators on their own are implementing a lot of 
different training efforts as well. So there is a lot of 
training going on, but again, it is not required. It is not 
consistent. It is important, and it is not clear what TSA's 
vision is for training, again, who should be trained and how 
often, how frequently, and by when. So I think training is very 
important, and I think it is something that TSA needs to focus 
on and communicate with stakeholders.
    You had mentioned foreign practices, if we had learned 
anything in our work that could potentially be applied 
domestically. There were some practices, although a lot of 
practices are the same domestically and foreign, there were 
some foreign practices that we saw that we felt should be 
considered here. One was related to training. It was not so 
much the training itself, but it was how the training was 
taught. Instead of a large classroom setting, it was more of a 
one-on-one conversation between a supervisor and their employee 
on security. A few countries were doing this. They thought it 
was much more effective than classroom training, so that was 
something of interest that we passed on.
    There were also a few other practices, one was covert 
testing. We found that some countries were doing covert testing 
of their rail systems. This was run by the federal government. 
It was also run by the rail operators themselves. That is where 
rail management or the government would leave a suspicious 
package. They would time how long it took a rail employee to 
detect it and report it. They would break a seal on a fire 
extinguished and time how long it took someone to detect it. So 
covert testing was one that was not done domestically here in 
the United States.
    Also, the random screening of passengers and their bags. At 
the time we did this work, that was not done domestically. It 
is done to a limited degree right now, but again not to the 
degree that we have seen in some foreign countries. And then a 
last major area was a clearinghouse of technologies. There are 
some federal governments that see it as their role, providing 
information to operators on technologies. So they really 
provided a clearinghouse on technologies that are existing and 
evolving and emerging, and they shared that information with 
rail operators. That was not done and is not done here today in 
the United States, although TSA is planning to do something 
along those lines.
    So there were a few other practices. Those were probably 
the major ones. We did recommend that DHS consider these as 
they move forward with their rail security efforts, and they 
agreed to do that.
    Regarding DHS's full control over grants, we haven't done 
work specifically focused on the grant process, other than look 
at the grants that have been distributed and what was being 
done with them. As a part of our ongoing work for this 
committee, we were asked specifically to look at grants. So we 
will get into a lot more detail on grants and how they are 
administered and what is working and what isn't. So we will 
make sure that we absolutely focus in on that.
    Your question about Dallas and Houston, Texas, I will have 
to get back to you, unfortunately. You have the list so you 
probably have more information than I do. Again, we will be 
doing additional work and we can make sure to focus in on these 
locations as a part of that.
    Ms. Jackson Lee. Thank you. My clock is sort of stilted at 
.16. But in any event, Congressman, as you have listened to her 
answers, do you have any additional questions that you would 
like to pose or invitations you would like to give?
    Mr. Perlmutter. I always invite people to Golden, Colorado. 
It is one of the best places on the planet. But I do have a 
question on the covert testing. I assume, my guess is that the 
TSA or some organization within the department is doing some 
kind of testing. As you were saying, that reminded me of the 
experience that Boston just had with that those funny-face 
things, or whatever they were. Are any of the organizations 
doing the testing to see how quickly the rail inspectors, or 
whomever, respond to a suspicious package?
    Ms. Berrick. TSA does have a covert testing program that is 
envisioned to cover all modes of transportation. Right now, 
that is just focused on aviation. TSA did run a pilot program 
where they did some covert testing at rail facilities, but they 
haven't moved forward with that and haven't implemented it yet, 
although they say they are considering that.
    The Department of Transportation is not doing any security-
related covert testing at rail facilities. The rail operators 
themselves at the time we interviewed them, again, this was 
about 12 months ago, were not doing any covert testing either 
of their own facilities. Again, it was somewhat striking in 
that there were quite a few other countries that were doing it, 
but so far, to my knowledge, it is not being done here.
    Mr. Perlmutter. Thanks, Madam Chair.
    And thanks, Ms. Berrick.
    Ms. Jackson Lee. I thank the distinguished gentleman.
    I would be happy to yield to the ranking member, in all of 
his timeliness, Mr. Lungren for 5 minutes.
    Mr. Lungren. They say you can't be three places at once. 
Well, we are proving them wrong.
    Thank you very much for being here, and thank you for the 
work that you have done and your testimony.
    Let me ask this, we do hear a lot of talk about the 
difference of how much time and how much money and how much 
manpower or personnel is placed on aviation versus rail and 
mass transit. The TSA administrator made the point that the 
federal government has this massive role in the area of 
aviation in terms of personnel, but that in rail it is 
primarily local jurisdictions and the private sector, but 
primarily the local and state jurisdictions.
    Is there any argument that you believe would lead us to 
federalize rail and mass transit security? Should we even 
contemplate doing anything like spending the amount of money it 
would require for federal security and a screening force for 
mass transit? If not, what should we be doing? I want to get a 
very, very precise question, not a wide question. But if not, 
what should we be doing?
    Ms. Berrick. Thanks for the question.
    In terms of federalizing rail and mass transit security 
efforts, we have never heard positions that would support us 
saying we think that that is a good idea. Frankly, that has 
never really been raised with the rail operators. They 
understand that this is their responsibility. They are going to 
have to pay for security. It is a matter of doing business, but 
it is also a shared responsibility. They recognize that the 
federal government does need to be involved and set what the 
strategy is for rail security.
    So in terms of federalization, they haven't been convinced 
or even gotten input that that is something that should be 
done. But what the rail operators do want is they want more 
from the federal government in terms of where they ultimately 
want to be with rail security, and they want to know how that 
is going to impact them. After 9/11, rail operators moved 
quickly. They implemented a lot of different security programs. 
FRA and FTA did, too.
    But right now, where they are is it is not clear how these 
fit together. Although a framework is established, where they 
are talking to TSA, there are still not clear on where TSA is 
going. So as a result, they are looking for more guidance, 
strategy from TSA, and then assistance through the grant 
program.
    In terms of the amount of money that should be administered 
through grants or other efforts, again I think that gets back 
to completing these risk assessments across rail, which we have 
reported haven't been fully completed or coordinated. There has 
been a lot of progress, but there could be some more, and then 
laying out what that strategy is.
    Mr. Lungren. Obviously, there are a lot of elements to it, 
but one of the concerns I have, and it was expressed a number 
of different ways by the other government representatives who 
spoke, is the potential vulnerability at a rail yard, if you 
have hazardous cargo or if you just have the opportunity, 
perhaps, to sabotage or in some way gain access to the rail 
cars that are there.
    Are there best security practices that you were able to 
observe with respect to securing rail yards, access to the rail 
yards, level of surveillance of the rail yards, et cetera?
    Ms. Berrick. Actually, our work was focused on passenger 
rail security.
    Mr. Lungren. Right.
    Ms. Berrick. We did initiate a review for this committee on 
freight rail, and hazardous materials and the storage at rail 
yards is one issue that we will be looking at as a part of that 
work.
    Mr. Lungren. Okay. I hope you look at that part of it.
    Ms. Berrick. Yes, we will.
    Mr. Lungren. I am not looking for blame. I am looking for 
answers. It just strikes me that we have a new culture, a new 
environment, a new concern that we didn't have before. And 
where before you didn't have to worry about limiting the access 
as much as we do now. Have we taken a fresh pair of eyes to 
look at this sort of thing to see if we are doing what needs to 
be done at those locations?
    Now, I am not giving you any suggestion I have evidence 
that that is a huge problem. It just strikes me, as an 
observer, as one who has been in and around rail yards, that 
that could be a real vulnerability, and how do we go about 
applying best practices, and what is the government role in 
that, and what is the federal government role in that?
    I would appreciate observations and conclusions you might 
have on that.
    Ms. Berrick. We will look at that.
    Mr. Lungren. Thank you very much.
    Thank you, Madam Chairman.
    Ms. Jackson Lee. Thank you very much.
    We will conclude. I would like to yield myself 5 minutes to 
just conclude. I am not sure if the ranking member needs 
additional time.
    You asked a very important question, as you focused on what 
we should be doing and how we should be doing it. Let me just 
ask you a question of GAO accountability in terms of how do you 
think processes work better.
    You mentioned that you want to study the transportation 
security grant process. Let me just move it a notch up and 
simply say, has it been found by GAO that when an agency 
controls directly the purse-strings, meaning that based upon 
their process, whether it is at risk, they make the 
determination and they issue the funding, that it is a more 
effective chain of events and makes it a more effective process 
of oversight?
    Ms. Berrick. Thank you.
    GAO has done work looking at the distribution of grants. 
Your specific question about whether or not it is more 
effective if one agency is controlling it, I will have to check 
to see if we covered that specific point. I know some of the 
issues we have raised in the past about the distribution of 
grants have been related to making sure that the process is 
clear to grant recipients, what they have to do to apply for 
grants, not changing the process mid-stream, which sometimes 
happens during grantmaking processes, so as a result, the 
recipients aren't sure how to apply and the requirements are 
changing.
    And then also the timeliness of receiving the grants. If it 
filtered through the states, for example, there could be a 
significant delay, for example, for rail operators receiving 
grants.
    So those have been the three issues that have surfaced in 
our grant work. I will have to check to see specifically if we 
looked at whether or not that was an issue in terms of control, 
and which agency is controlling the grant, and would that have 
an impact on the oversight.
    Ms. Jackson Lee. On the oversight, federal agencies, that 
is.
    Ms. Berrick. On their oversight, federal. And we will look 
specifically at this issue for passenger rail, again, as a part 
of our work.
    Ms. Jackson Lee. Let me just, Congressman Lungren mentioned 
this issue of hazardous materials. I think the irony is that 
this confusion between state and local authority versus federal 
is getting even more confused as it relates to the rail system 
because a recent notice of proposed rulemaking, recently 
released by TSA, had TSA and the Department of Transportation 
precluding state and local officials from mandating the re-
routing of hazardous materials.
    I think that is the dichotomy of the conflict. We don't 
know whether to put it in the states or to take it back. Do you 
see that that is very important for us to sort of get some 
order in how we are regulating our rail, whether it is 
hazardous materials or whether it is passengers?
    Ms. Berrick. Again, most of our work has been focused on 
passenger rail security, but related to hazmat and freight?
    Ms. Jackson Lee. The point is that they interfered with 
state and local authorities, saying, for example, don't go 
through this neighborhood. They left that responsibility to the 
federal government. It looks like we have sort of a uneven sort 
of order to doing this. Don't we need to get consistent in how 
we handle this regulation, whether it is freight or passenger?
    Ms. Berrick. There needs to be communication with the 
stakeholders, and I would hope for that specific requirement 
there was coordination with the stakeholders to get their 
input. I know this is a proposed rule, so you will get comments 
back in on it. But in terms of whether or not it should be 
consistent, I don't know what the answer to that is. I think 
you would have to look at it on a facts and circumstances, what 
the specific requirement is, maybe the federal government 
should take more of a role, maybe they should take less of a 
role.
    So I think it is going to depend on the specific 
circumstances. I think there has to be coordination so the 
government has all the information it needs to make an informed 
decision. And then from that, they need to make a decision and 
then move forward. But right now, the requirements have been 
uncertain. In most of the cases, it is not clear what the 
government's role ultimately is going to be, and this may be 
another case.
    Ms. Jackson Lee. That is an important point.
    My last question is, what should be the federal 
government's top priority in securing the passenger rail 
system?
    Ms. Berrick. I think the top priority is the risk 
assessments. Make sure that what DHS is doing, what TSA is 
doing, what DOT is doing is consistent, and that can be 
consistently applied across rail and across other 
transportation modes so that TSA can make informed decisions.
    Stemming from that, I think another important element is 
the strategy based on these risk assessments. Identify a clear 
strategy, a clear roadmap on what they want the end-game to be 
for passenger rail and how to get there, so that they can 
measure their progress and be held accountable for doing it.
    And then I think a third area, it gets back to 
coordination, since this is a shared responsibility, there 
needs to be a framework in place. At passenger rail, I think 
they do have a framework in place. They just need to implement 
that, and moving forward, to make sure that they can implement 
these requirements and work with stakeholders to make them 
successful.
    Ms. Jackson Lee. Let me thank you very much. Thank you for 
your testimony.
    As I indicated earlier, members have 5 days to submit their 
statements into the record, and as well, we will look forward 
to any information that the witnesses would desire to put in.
    I thank the witnesses for their valuable testimony, and the 
members for their questions. I have already said the members of 
the subcommittee may have additional questions for the 
witnesses, as I will have, and we will ask you to respond 
expeditiously in writing to those questions.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]


           APPENDIX A: THE RAILROAD INDUSTRY'S SAFETY RECORD

                              ----------                              

    The railroad industry's overall safety record is very positive, and 
most safety trends are moving in the right direction. While not even a 
single death or injury is acceptable, progress is continually being 
made in the effort to improve railroad safety. This improvement is 
demonstrated by an analysis of the Federal Railroad Administration's 
(FRA) database of railroad reports of accidents and incidents that have 
occurred over the nearly three decades from 1978 through 2005. (The low 
point of rail safety in recent decades was 1978, and 2005 is the last 
complete year for which nearly final data are available.) Between 1978 
and 2005, the total number of rail-related accidents and incidents has 
fallen from 90,653 to 13,969, an all-time low representing a decline of 
85 percent. Between 1978 and 2005, total rail-related fatalities have 
declined from 1,646 to 888, the second-lowest number on record and a 
reduction of 46 percent. From 1978 to 2005, total employee cases (fatal 
and nonfatal) have dropped from 65,193 to 5,643, the record low; this 
represents a decline of 91 percent. In the same period, total employee 
deaths have fallen from 122 in 1978 to 25 in 2005, a decrease of 80 
percent.
    Contributing to this generally improving safety record has been a 
71 percent decline in train accidents since 1978 (a total of 3,225 
train accidents in 2005, compared to 10,991 in 1978), even though rail 
traffic has increased. (Total train-miles were up by 5 percent from 
1978 to 2005.) In addition, the year 2005 saw only 37 train accidents 
out of the 3,225 reported in which a hazardous material was released, 
with a total of only 50 hazardous material cars releasing some amount 
of product, despite about 1.7 million movements of hazardous materials 
by rail.
    In other words, over the last approximately three decades, the 
number and rate of train accidents, total deaths arising from rail 
operations, employee fatalities and injuries, and hazardous materials 
releases all have fallen dramatically. In most categories, these 
improvements have been most rapid in the 1980s, and tapered off in the 
late 1990s. Causes of the improvements have included a much more 
profitable economic climate for freight railroads following 
deregulation in 1980 under the Staggers Act (which led to substantially 
greater investment in plant and equipment), enhanced safety awareness 
and safety program implementation on the part of railroads and their 
employees, and FRA's safety monitoring and standard setting (most of 
FRA's safety rules were issued during this period). In addition, rail 
remains an extremely safe mode of transportation for passengers. Since 
1978, more than 10.7 billion passengers have traveled by rail, based on 
reports filed with FRA each month. The number of rail passengers has 
steadily increased over the years, and since 2000 has averaged more 
than 500 million per year. Twelve rail passengers were killed in train 
collisions and derailments in 2005, including ten that died in the 
Glendale, California tragedy. On a passenger-mile basis, with an 
average about 15.5 billion passenger-miles per year since the year 
2000, rail travel is about as safe as scheduled airlines and intercity 
bus transportation and is far safer than private motor vehicle travel. 
Rail passenger accidents--while always to be avoided--have a very high 
passenger survival rate.
    As indicated previously, not all of the major safety indicators are 
positive. Grade crossing and rail trespasser incidents continue to 
cause a large proportion of the deaths associated with railroading. 
Grade crossing and rail trespassing deaths accounted for 93 percent of 
the 888 total rail-related deaths in 2005. In recent years, rail 
trespasser deaths have replaced grade crossing fatalities as the 
largest category of rail-related deaths. In 2005, 467 persons died 
while on railroad property without authorization, and 357 persons lost 
their lives in grade crossing accidents. Further, significant train 
accidents continue to occur, and the train accident rate per million 
train-miles has not declined at an acceptable pace in recent years. It 
actually rose slightly in 2003 and 2004 (to 4.05 and 4.38, 
respectively) compared to that in 2002 (3.76), although it dropped in 
2005 (to 4.08). As stated in the main testimony, the causes of train 
accidents are generally grouped into five categories: human factors; 
track and structures; equipment; signal and train control; and 
miscellaneous. The great majority of train accidents are caused by 
human factors and track. In recent years, most of the serious events 
involving train collisions or derailments resulting in release of 
hazardous material, or harm to rail passengers, have resulted from 
human factor or track causes. Accordingly, the National Rail Safety 
Action Plan makes human factors and track the major target areas for 
improving the train accident rate.


    APPENDIX B: SUMMARY OF THE STEPS FRA HAS TAKEN TO IMPLEMENT ITS 
                    NATIONAL RAIL SAFETY ACTION PLAN

<bullet> In response to various rail safety concerns, including 
some recent major train accidents, such as Graniteville, SC, 
and the lack of substantial improvement in the train accident 
rate in recent years, Secretary of Transportation Norman Mineta 
launched the National Rail Safety Action Plan in May 2005. FRA 
has made real and substantial progress in bringing its 
aggressive and ambitious National Rail Safety Action Plan to 
fruition.

<bullet> To reduce the number of train accidents caused by 
human factors (the largest category of train accidents), FRA--
        <bullet> Issued a proposed Federal rule in October 2006 
        that would address top causes of human factor train 
        accidents (such as failing to return a track switch to 
        its proper position, which led to the Graniteville 
        accident). The final rule is expected to be issued 
        later this year.
        <bullet> Implemented an ongoing research program to 
        identify human performance problems. Railroads, their 
        employees, and FRA are entering into agreements that 
        permit the employees to report unsafe events that do 
        not result in a reportable accident but could have done 
        so, without the fear of discipline.
        <bullet> Made available to railroads and their 
        employees a fatigue model that can assist them in 
        developing crew scheduling practices based on the best 
        current science.
        <bullet> Approved the first positive train control 
        system capable of automatically controlling train speed 
        and movements to prevent train collisions and other 
        accidents. The system will be installed on many BNSF 
        Railway Company (BNSF) rail lines.
        <bullet> Completed a pilot project, in partnership with 
        BNSF, to develop a low-cost system that electronically 
        monitors, detects, and reports a misaligned switch on 
        mainline track located in non-signaled track territory. 
        BNSF plans expansion of this and other similar systems 
        on other non-signaled lines of its company.

To help prevent track-caused train accidents (the second-
leading category), FRA--
        <bullet> Developed an automated track inspection system 
        that uses high-resolution video to detect cracks in 
        joint bars. Testing showed that the high-resolution 
        video system detected cracks that were missed by the 
        traditional visual inspections. The system, which can 
        be deployed on a hi-rail vehicle to detect cracks in 
        joint bars without having to stop the vehicle, was 
        demonstrated to the railroads during summer and fall of 
        2006.
        <bullet> Issued a final rule requiring track owners to 
        develop and implement a procedure for the detailed 
        inspection of rail joints in continuous welded rail 
        track.
        <bullet> Contracted for the construction of two 
        automated track inspection vehicles, to be delivered in 
        February and March, 2007, which will bring FRA's fleet 
        to five, allowing FRA to inspect nearly 100,000 track-
        miles each year, which triples the present capacity. 
        This additional capability will permit FRA to inspect 
        more miles of major hazardous material (hazmat) and 
        passenger routes, while also having the ability to 
        follow up more quickly on routes where safety 
        performance is substandard.

To improve hazmat safety and emergency response capability, FRA 
improved emergency responders' timely access to hazmat 
information. As discussed in FRA's testimony today, FRA also 
accelerated its tank car structural research, hopes to issue 
new tank car performance standards in 2008, and has issued an 
NPRM on passenger train emergency systems.

To strengthen FRA's rail safety inspection and enforcement 
program, FRA has made better use of data to direct FRA safety 
inspectors and other resources to where problems are likely to 
arise. FRA's new National Inspection Plan was fully implemented 
for all FRA safety disciplines in March 2006, and further 
training will be provided to FRA safety personnel on how to 
best use the data during the scheduled national technical 
conferences this year.

To foster further improvements in highway-rail grade crossing 
safety, FRA--
        <bullet> Built partnerships with State and local 
        agencies by issuing, in May 2005, and extensively 
        distributing a safety advisory describing the roles of 
        the Federal and State governments and of the railroads 
        in crossing safety. The advisory also reminds railroads 
        of their responsibilities in relation to crossing 
        accident reporting and investigation and offers 
        assistance to local authorities in the investigation of 
        crossing collisions where information or expertise 
        within FRA control is required to complete the 
        investigation.
        <bullet> Aided the State of Louisiana in developing a 
        crossing safety action plan, approved by the State in 
        April 2006. This State has consistently ranked among 
        the top five with the highest number of crossing 
        collisions and fatalities. The State of Texas is 
        currently working with FRA to develop a similar plan, 
        and FRA is encouraging other States with a high numbers 
        of grade crossing accidents to do the same.
        <bullet> Launched an ongoing public safety inquiry into 
        safety at private crossings.
<bullet> We would be glad to provide the Subcommittee with 
additional information on the current status of FRA's 
implementation of the National Rail Safety Action Plan.

                                 <all>

</pre></body></html>
